FILED
SEP 1 8 2020
No. 20-4

OFFICE OF THE CLERK
SUPREME COURT, U.S.

3n Abe

Oupretne Court of the littiteb iikateti
♦
ROSANNE L. WOODROOF,
Petitioner,
V.
JOSEPH F. CUNNINGHAM;
CUNNINGHAM & ASSOCIATES, PLC,
Respondents.
♦

On Petition For A Writ Of Certiorari
To The District Of Columbia Court Of Appeals
♦
REPLY BRIEF
♦
L. WOODROOF
PO Box 3050
Warrenton, VA 20188
(202) 262-0140

ROSANNE

1

TABLE OF CONTENTS
Page
JURISDICTION

1

INTRODUCTION/STATEMENT OF CASE

1

REASONS PETITION SHOULD BE REVIEWED

4

Resolution of Circuit Split on Evident Partiality
and Related Disclosures is Long Overdue
4
The Arbitrators Clearly Exceeded Their Authority
8
DC Superior Court Should Have Appointed a Replacement Arbitrator under the Federal Arbitration Act Section 5 To Promote Arbitration
Not Defeat It
10
Cunningham Erroneously States The Parties Had a Panel in Place and that the
Court Correctly Circumvented Woodroof's
FAA Section 5 Motion
10
Cunningham Admits The Arbitrator's
Resignation Did Not Trigger the "Integral
Exception" And That the Appointment
Process Is Not Impossible to Perform
12
Cunningham Errs. The Superior Court Has
Authority To Intervene Under General
Contract Principles as "Exist at Law or In
Equity" (quoting 9 U.S.C. Section 2)
13
CONCLUSION

15

11

TABLE OF CONTENTS — Continued
Page
APPENDIX
Cunningham Motion to Dismiss Dated February 6, 2014
App. 114
Defendants' Memorandum in Support of the Motion to Dismiss Dated February 6, 2014
App. 116
Order

App. 129

April 11 2017 Email Woodroof to Cunningham
Seeking Name of Current Arbitrator & Cooperating on Rules
App. 131
August 2017 Email Woodroof to Cunningham
Seeking Cooperation on Rules
App. 134
July 28 2017 Both Parties Name Party
Arbitrator

App. 137

Kaplan October 10 to November 27, 2017 Woodroof to Kaplan Re Moving Forward on Arbitrator Replacement Using Same List/Procedure
(Contract)
App. 138
Porter Case Re FAA Section 2 "In Equity" Arbitrator Disqualification
App. 141
ABA Ethics Preamble Re Presumption of Neutrality for All Arbitrators
App. 144
AAA Rule Arbitrators Presumed Neutral

App. 147

JAMS Rule Arbitrators Presumed Neutral

App. 149

AAA Code of Ethics Canon IX and X Selection of
Neutral and Non-Neutral Party Arbitrators App. 150
AAA Review Standards - Grounds for Disqualification & Required Disclosures
App. 152

iii
TABLE OF CONTENTS — Continued
Page
AAA Statistics Per Claim Size

App. 156

Transcript Excerpt

App. 157

Kaplan email re dismissal no evidentiary basis
and good argument for Section 5 Motion App. 161
Summary Timeline

App. 162

iv
TABLE OF AUTHORITIES
Page
CASES
Borst v. Allstate Ins. Co., 717 N.W. 2d 42 (Wis.
2006)
7, 14
Cargill Rice, Inc. v. Empresa Nicaraguense
Dealimentos Basicos, 25 F 3d 223 (4th Cir.
1994)

11

Commonwealth Coatings v. Continental Casualty Co., 393 U.S. 145, 89 S.Ct. 337, 21
L. Ed. 2d 301 (1968)
7, 14
Green Tree Financial Corp. -Ala. v. Randolph,
531 U.S. 79, 121 S.Ct. 513, 148 L.Ed.2d 373
(2000)

2

Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407 (2019)

8, 9

Metro. Prop. & Gas. V J.C. Penney Cas. 780
F. Supp. 885 (D. Conn. 1991)

14

National American Insurance Company v.
Transamerica Occidental Life Insurance Company, 328 F. 3d 462 (2003)
11, 12
Porter, et al. v. City of Flint, 736 F.Supp.2d 1095
(E.D. Mich. 2010)

14

Stop & Shop Supermarket Co. LLC v. UFCW
Local 342 and BP Exploration Libya Ltd v.
Exxonmobil Libya Ltd.

12

Tenaska Energy, Inc. v. Ponderosa Pine Energy,
LLC. 437 S.W. 3d 518 (Tex. 2014)

7

Winfrey v. Simmons Foods, Inc., 495 F.3d 549
(8th Cir. 2007)

6

V
TABLE OF AUTHORITIES — Continued
Page
STATUTES
9 U.S.C. Section 5
28 U.S.C. 1257

11
1

RULES
Supreme Court Rule 14.5

1

Supreme Court Rule 29.2

1

1
JURISDICTION
This Honorable Court has jurisdiction over this
matter under 28 U.S.C. 1257.
Petitioner Woodroof's original petition was submitted timely and in good faith. After its submission,
certain clerical issues within the petition were identified. Therefore, with the consent of the Clerk of this
Honorable court, pursuant to Supreme Court Rules
14.5 and 29.2, Petitioner timely submitted a corrected
petition, which was accepted by the Clerk of this Honorable Court for filing. Respondent Cunningham's contention that the submission of the corrected petition is
untimely is thus without merit.
♦

INTRODUCTION/STATEMENT OF CASE
The Motion to Dismiss with Prejudice underlying
this appeal argued to the trial court that arbitration
was impossible because the arbitrator resigned. Now
Respondent Cunningham (Cunningham) admits this
is false, but does not admit to refusing to cooperate on
a replacement, forcing Woodroof to seek court intervention under FAA Section 5. (Opp. 13-14)
The Order dismissing Woodroof's case described
a specific point in time between the hiring of the party
arbitrators on July 28, 2017 and the resignation of
the arbitrator on October 2, 2017. (App. 8-9) On October 9, 2017, despite the effort underway to hire a
replacement arbitrator, Respondent Cunningham

2
(Cunningham) sought a dismissal with prejudice.
(App. 138-140) Cunningham's Opposition distorts and
expands the timeline and reasons for the dismissal.
(See Summary Timeline App. 162-168)
Woodroof filed her fiduciary malpractice on September 24, 2013, while continuing to battle Cunningham on fees that should have been arbitrated in 2011.
(App. 162-163) In response, Cunningham filed a Motion to Dismiss with prejudice. (App. 114-130) Only
when his motion to dismiss Woodroof's claims in court
failed on May 29, 2014, did Cunningham demand arbitration. After requesting a delay, Cunningham filed
Answers on July 1, 2014. Woodroof appealed arbitration because of Cunningham's years of acts inconsistent with the right to arbitrate which deprived
Woodroof of the benefits of her arbitration contract,
causing Woodroof substantial prejudice.
The Appeal confirmed the Order to arbitrate, but
stipulated that Woodroof's waiver/default challenge
was a matter for an arbitrator to decide. The Mandate
was issued January 4, 2017. Woodroof, in financial distress and under threat of foreclosure on her home, was
forced to timely file a Motion for Prohibitive Cost based
on this Court's decision in Randolph.1 That motion
was summarily denied without a hearing. When Woodroof's Motion was denied, she sought to update the
name of Cunningham's arbitrator and to cooperate
on rules and decisions to commence arbitration. (App.
1 Green Tree Financial Corp.-Ala. v. Randolph, 531 U.S. 79,
121 S.Ct. 513, 148 L.Ed.2d 373 (2000)

3
131-133) Cunningham refused to reveal the name of
his arbitrator or cooperate with Woodroof, instead filing a Motion to Dismiss with Prejudice claiming Woodroof excessively delayed hiring an arbitrator and failed
to obtain the proper stay for her appeal, both false.
Woodroof does not believe that this Court intended for
good faith filings based on its decisions to result in retaliatory accusations of dilatory delay, or, even worse,
rationalization for dismissal.
At the Status Hearing on June 30, 2017, the trial
court refused arguments. Instead it launched into a
tirade against Woodroof, stating her financial problems
were no excuse for not arbitrating. The court demonstrated a visceral dislike for Woodroof, a former legal
client trying to combat excessive fees and fiduciary
abuse, as well as her case against an attorney. Cunningham's recent death greatly increased sympathy
for Cunningham. The court angrily ordered Woodroof
to hire a party arbitrator of have her case dismissed,
oblivious to the fact that Cunningham's arbitrator, who
was never eligible to serve in the first place, had retired months earlier on January 10, 2017. Woodroof
complied with the order fraudulently induced by Cunningham, only to have Cunningham name a new party
arbitrator two minutes later. (App. 137) Further, Cunningham did not disclose his party arbitrator was intended to be non-neutral nor had he made such a
disclosure when naming the original party arbitrator
on July 14, 2014.
The non-neutral joined the panel and was highly
successful in pushing for advantageous terms for his

4
client. On October 9, about two months after the parties hired their party arbitrators, when Woodroof resisted coerced consent to unfavorable terms not even
in her contract, Cunningham filed another Motion to
Dismiss with prejudice. Cunningham forced Woodroof
out of her arbitration and any merit-based adjudication of her case.
The arbitration contract between Woodroof and
her lawyer/fiduciary was not negotiated. It was a
standard contract drafted by Cunningham and presented to the firm's clients for years.
♦

REASONS PETITION SHOULD BE REVIEWED
Resolution of Circuit Split on Evident Partiality
and Related Disclosures is Long Overdue
The U.S. federal circuit courts are split on the
correct standard for "evident partiality." The Fifth,
Eighth, Tenth and Eleventh circuits find evident partiality where there is a "reasonable impression" of bias,
similar to the Ninth Circuit. However, the First, Third,
Fourth, Sixth and Seventh circuits use a standard similar to the Second Circuit, that a "reasonable person
would have to conclude" there was bias. The D.C. Circuit has yet to adopt a specific standard.
Cunningham argues that evident partiality does
not apply in this appeal because Woodroof's primary
complaint is about a party arbitrator and party arbitrators are presumed non-neutral. (Since the Panel

5
Chair failed to collect even minimal disclosures before
proposing, then attempting to coerce Woodroof into a
non-neutral framework contrary to the industry's default standard of neutrality, there is a case for bias on
the part of that arbitrator. Because he resigned, he
has not been the focus of Woodroof's evident partiality
arguments)
Contrary to Cunningham's arguments to every
court, including this Court, the current ethical standards for commercial arbitration in the United States
emphatically embrace the presumption of neutrality
for all arbitrators, including party arbitrators directly
appointed. In 2004, the arbitration industry implemented a major shift regarding the presumption of
neutrality. (App. 144-146) This was spearheaded by
the American Bar Association in concert with the
American Arbitration Association, the world's largest
nonprofit arbitration entity. JAMS, the largest private
arbitration entity globally followed suit by requiring
neutrality for all arbitrators, absent express written
provisions otherwise. (App. 147-154) This overhaul
was intended to promote greater integrity, foundational to arbitration as an alternative form of adjudication, and also finality, a primary goal of arbitration.
The Cunningham contract does not expressly call
for non-neutral party arbitrators. Nor did Cunningham stipulate non-neutrality for the original arbitrator presumably hired in July 2014 or the more recent
selection in July 2017. Suddenly Woodroof was confronted with an obviously non-neutral party arbitrator
advocate on her arbitration panel, although she had

6
hired a neutral party arbitrator based on current industry standards and her contract.
The Panel Chair, who once taught a course in negotiation at American University (AU), was not, as
Cunningham asserts, a professor of law or arbitration
at AU. He had little experience or expertise in the sort
of commercial tripartite arbitration he was expected
to manage and did not collect the required disclosures.
Thus, the panel proceeded permeated with bias and
evident partiality caused by a non-neutral, a major
problem in this case. It sought to convince Woodroof
she would benefit from consenting to the non-neutral
schematic favorable to Cunningham, instead of the
default standard for the industry. (App. 39-41)
The cases Cunningham cites are mostly out of
date, reflecting the prior industry presumption of nonneutrality for party arbitrators, the exact opposite of
today's standards.2 At the dismissal hearing, Cunningham similarly argued the outdated presumption of
non-neutrality for all arbitrators and the court ignored
Woodroof's efforts to set the record straight. (App. 157160) The court summarily dismissed Woodroof as
"obstructive" when she tried to ferret out bias and evident partiality by seeking disclosures Cunningham
was avoiding.

2 In Winfrey v. Simmons Foods, Inc., 495 F.3d 549, 552 (8th
Cir. 2007) the parties signed an addendum agreeing to nonneutral party arbitrators.

7
Certain state courts have emphatically embraced
the 2004 ABA/AAA ethical standards for arbitrators
in commercial disputes. In Tenaska Energy, Inc, the
Supreme Court of Texas discusses the importance of
disclosure to evident partiality, setting forth its linkage
to this Court's decision in Commonwealth Coatings,
393 U.S. at 149, 151. That case applied the standard
that an arbitrator is evidently partial and an award
may be vacated, if the arbitrator fails to disclose facts
which might, to an objective observer, create a reasonable impression of the arbitrator's partiality. That
court considered a duty to disclose and failure to do so
as a basis for evident partiality. (Tenaska Energy, Inc.
v. Ponderosa Pine Energy, LLC. 437 S.W. 3d 518 (Tex.
2014)
The Supreme Court of Wisconsin also adheres to
the new default standard presuming neutrality for
all arbitrators, including party arbitrators. In Borst v.
Allstate Ins.3 the court explains the importance of
aligning with and respecting the parties' contract on
neutrality. That court looked to Commonwealth Coatings, 393 U.S. 145, 89 S Ct. 337, 21 L. Ed. 2d 301. for
guidance and adopted the standard that "evident partiality" exists only when a reasonable person knowing
the previously undisclosed information would have
had "such doubts" regarding the impartiality of the
arbitrator that the person would have taken action
on the information. The standard is whether the

3

Borst v. Allstate Ins. Co., 717 N.W.2d 42 (Wis. 2006)

8
reasonable person, after further investigation, would
conclude that "partiality is so likely that action was required."
The Arbitrators Clearly Exceeded Their Authority
Cunningham's opposition brief argues that whenever an arbitration panel exceeds its authority and
fundamentally changes the nature of the arbitration,
that decision is unreviewable prior to the final award.
Not so.
As this Court recently cautioned, "The first principle that underscores all of our arbitration decisions is
that arbitration is strictly a matter of consent." Lamps
Plus, Inc. v. Varela, 139 S. Ct. 1407, 1415 (2019) (quotation marks, brackets, and citation omitted). This
court elaborates,
Consent is essential under the FAA because
arbitrators wield only the authority they are
given. That is, they derive their powers from
the parties' agreement to forgo the legal process and submit their disputes to private dispute resolution. Parties may generally shape
such agreements to their liking by specifying
with whom they will arbitrate, the issues
subject to arbitration, [and] the rules by
which they will arbitrate . . . Whatever they
settle on, the task for courts and arbitrators
at bottom remains the same: to give effect to
the intent of the parties.

9
Id. Here, the arbitrators exceeded their authority
when they sought to fundamentally change the nature
of the parties' arbitration agreement. Among other
things, they construed contractual silence to permit
the arbitration to proceed with non-neutral arbitrators, in violation of this Court's precedents and the
ABA Code of Ethics for Arbitrators. As this Court cautions, "Silence is not enough; the FAA requires more."
Id. at 1416 (quotation marks and citation omitted).
Yet when Woodroof objected to this fundamental
change to the nature of her arbitration, Cunningham
used that objection to run to court and have the case
dismissed for, allegedly, refusing to participate in a dispute resolution process to which she had not consented.
Dismissing a case because a party disagrees with
fundamental changes to a contract is unconscionable.
Arguing that this dismissal is also unreviewable because the fundamentally changed arbitration process
was subverted before a final award is nonsensical. And
Cunningham arguments to the contrary should be
firmly and explicitly rejected by this Court.

10
DC Superior Court Should Have Appointed a
Replacement Arbitrator under the Federal Arbitration Act Section 5 To Promote Arbitration
Not Defeat It
1. Cunningham Erroneously States The Parties
Had a Panel in Place and that the Court Correctly Circumvented Woodroof's FAA Section
5 Motion
The Panel Chair resigned after a couple of hours
work, before the Arbitration proceeding commenced.
Woodroof immediately obtained agreement from the
two remaining party arbitrators to proceed to select a
replacement Panel Chair using the same methodology
and list of qualified candidates. (App. 138-140) Woodroof sought a mutually agreeable candidate rather
than wait for court intervention for an appointment
unknown to either party. However, Cunningham abruptly filed a Motion to Dismiss on October 9, 2017,
arguing that it was "impossible" to continue the arbitration because the Panel Chair had resigned.
As per the twenty-four emails Woodroof sent
Kaplan, her Party Arbitrator, between October 10 and
November 27, 2017, Woodroof vigorously pursued the
arbitrator replacement for weeks. She used the contractually mandated procedures for the initial selection, paying Kaplan an additional $5,473 for his efforts
during that time. (App. 138-140) However, Cunningham would not cooperate on an offer to the mutually
agreed upon candidate, a retired DC Judge. Woodroof
needed to replace the Panel Chair to continue arbitration, and address any grievances or concerns of the

11
parties such as the pending Motion to Dismiss or the
interim ruling Woodroof sought on her threshold right
to arbitrate issue from her prior appeal. She engaged
counsel at the cost of tens of thousands of dollars to
assist in continuing the arbitration and defending herself against Cunningham's efforts to end the arbitration and his liability to Woodroof.
Woodroof's Section 5 Motion could not have been
motivated to obtain a panel or process more "to her
liking" as Cunningham accuses, because Woodroof
would lose control of the selection process if the court
appointed an arbitrator. It was not foreseeable that a
new Panel Chair appointed by the court, particularly a
court which displayed a visceral dislike for Woodroof
and her case against her former attorney, would be
"more to her liking" than one selected by the parties.
Cunningham errs in citing Cargill Rice, Inc. v.
Empresa Nicaraguense Dealimentos Basicos, 25 F 3d
223 (4th Cir. 1994) which involves the initial formation
of a panel, not replacement of a resigned arbitrator
already selected according to the contract. (And also
ignores Cunningham's efforts to block Woodroof's replacement using the exact contractual formula originally used). In this case, the contract is silent on
replacement of a resigned arbitrator. "As correctly
noted by the district court, the 1990 agreements do not
stipulate a method to replace an arbitrator in the event
of a vacancy on the arbitration panel. Because the
agreements are silent on this issue, this dispute is governed by 9 U.S.C. Section 5, which provides . . . " (See
9 U.S.C. Section 5 per Opposition page 11.) National

12
American Insurance Company v. Transamerica Occidental Life Insurance Company, 328 F. 3d 462 (2003)
(Eighth Circuit)
Nonetheless, courts have gone to great lengths to
respect arbitration contracts, but ultimately the FAA
not only authorizes, but mandates court intervention
in the circumstances here. (See Stop & Shop Supermarket Co. LLC v. UFCW Local 342 and BP Exploration Libya Ltd v. Exxonmobil Libya Ltd.)
2. Cunningham Admits The Arbitrator's Resignation Did Not Trigger the "Integral Exception" And That the Appointment Process Is
Not Impossible to Perform
The trial court and DC Court of Appeals acted as
if the resignation of the arbitrator actually ended the
arbitration, creating an odd contribution to the already
existing circuit split on integral forums/arbitrators.
Cunningham admits it sought court intervention
to end Woodroof's arbitration. The excuse is that Woodroof would not agree to the panel's coercion of substantive changes to the parties contract which completely
changed the expected bargain in Cunningham's favor.
At the dismissal "Status Hearing, " Cunningham admitted Woodroof was absolutely correct — that after
the resignation of the arbitrator, he "simply refused
to go through this charade again . . . You know, pick
another arbitrator, start all over again, only to have
Ms. Woodroof decide there's something wrong with
that panel." (App. 157-160) Woodroof argued that the

13
problem with the arbitration was the required disclosures, Defense Counsel's relationship with his party
arbitrator and Cunningham's interpretation of the
contract regarding neutrality. The trial court went for
the charade rationale. Section 5 of the Federal Arbitration Act is designed to avoid disruptions to arbitration
as well as efforts by litigants to prematurely exit or end
arbitration if an arbitrator becomes unavailable.
There was no "impossibility" as Cunningham argued in the Motion to Dismiss, only a ruse to get out of
the arbitration Cunningham had demanded. If there is
any frustration of purpose, it is the frustration of the
purpose of arbitration to decide Woodroof's case on the
merits.
The Superior Court was mandated by the Federal
Arbitration Act to appoint a replacement arbitrator.
Compliance with the Federal Arbitration Act was not
discretionary or optional. The lower court defied the
FAA. The DC Court of Appeals should have reviewed
this circumvention of the Federal Arbitration Act de
novo.
3. Cunningham Errs. The Superior Court Has
Authority To Intervene Under General Contract Principles as "Exist at Law or In Equity"
(quoting 9 U.S.C. Section 2)
Particularly, there is an exception "where, prior to
the commencement of any arbitration proceedings, the
plaintiff alleged specific instances of actual misconduct
on the part of an arbitrator." Vestax, 919 F. Supp. At

14
1075 (citing Metro. Prop. & Gas. V J.C. Penney Cas. 780
F. Supp. 885, 893-94 (D. Conn. 1991)
The "touchstone" determination in deciding a
court's authority to remove an arbitrator during the arbitration is where "the arbitrator's relationship to one
party is undisclosed, or unanticipated and unintended,
thereby invalidating the contract." Aviall. 110 F. 3d at
896. (App. 142-143 Porter, et al. v. City of Flint) This
case points out that to delay removal would cause the
arbitration to proceed under a cloud. It would also severely threaten one of the primary goals of arbitration
— finality.
Similarly, other courts have recognized the importance of pre-arbitration removal to reduce the
likelihood of potentially wasteful post arbitration challenges. The court in Borst v. Allstate Ins. Co., 717 N.W.
2d 42, 48 (Wis. 2006) reasoned that pre-arbitration
disclosures would allow the parties to gauge arbitrator
bias, echoing the importance of disclosures described
in Commonwealth Coatings v. Continental Casualty
Co., 393 U.S. 145, 151, 89 S.Ct. 337, 21 L. Ed. 2d 301
(1968).
♦

15
CONCLUSION
For the reasons stated in this brief, and those in
the opening brief, the petition for a writ of certiorari
should be granted.
Respectfully submitted,
ROSANNE L. WOODROOF
PO Box 3050
Warrenton, VA 20188
(202) 262-0140

Reply App. 114

SUPERIOR COURT FOR THE DISTRICT OF COLUMBIA
CIVIL DIVISION
)
)
)
Plaintiff,
)
)
v.
)
)
JOSEPH F. CUNNINGHAM, ET AL.,)
ROSANNE L. WOODROOF

Case No. 2013 CA 006474 M
Hon. Brian F. Holeman
Next Event: Scheduling Conference;
February 7, 2014, 11:00 AM

)

Defendants.

)
)
DEFENDANTS' MOTION TO DISMISS

Defendants, Joseph F. Cunningham and Cunningham & Associates, PLC, through
counsel, and pursuant to Rule 12(b)(6) of the Superior Court Rules of Civil Procedure, submit
this Motion respectfully requesting that the Court dismiss the Plaintiff's Amended Complaint
with prejudice. The grounds for this motion are set forth more fully in the attached memorandum
of points and authorities in support hereof. A proposed order consistent with this motion is
attached hereto as well.
Dated: February 6, 2014
CUNNINGHAM & ASSOCIATES, PLC
AND JOSEPH F. CUNNINGHAM

/s/ Joseph F. Cunningham
Joseph F. Cunningham (DC BAR #65532)
CUNNINGHAM & ASSOCIATES, PLC
1600 Wilson Boulevard, Suite 1008
Arlington, Virginia 22209
Telephone: (703) 294-6500
Facsimile: (703) 294-4885
Email: info@cunninghamlawyers.com
Counsel for Defendants

Reply App. 115

RULE 12-I CERTIFICATION
I CERTIFY that, pursuant to District of Columbia Superior Court Rule 12-I, I contacted
Plaintiff to determine whether she would consent to the relief requested m this Motion, and
Plaintiff refused to consent to said relief
\s\
Robert Gastner

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 6th day of February, 2014, a true copy of the foregoing
Defendants' Motion to Dismiss was served via Electronic Mail and First Class Mail to the
following pro se party:

Rosanne Woodroof
P.O. Box 3050
Warrenton, Virginia 20188
Email: ROSANNE.WOODROOF@comcast.net
Pro Se Plaintiff

\s\
Robert J. Gastner

2

Reply App. 116

SUPERIOR COURT FOR THE DISTRICT OF COLUMBIA
CIVIL DIVISION
)
)
)
Plaintiff,
)
)
v.
)
)
JOSEPH F. CUNNINGHAM, ET AL.,)
ROSANNE L. WOODROOF

Case No. 2013 CA 006474 M
Hon. Brian F. Holeman
Next Event: Scheduling Conference;
February 7, 2014, 11:00 AM

)

Defendants.

)
)

DEFENDANTS' MEMORANDUM OF POINTS AND AUTHORITIES
IN SUPPORT OF THEIR MOTION TO DISMISS
Defendants, Joseph F. Cunningham and Cunningham & Associates, PLC, through
counsel, and pursuant to Rule 12(b)(6) of the Superior Court Rules of Civil Procedure, submit
this Motion respectfully requesting that the Court dismiss the Plaintiff's Amended Complaint
with prejudice. In support of this Motion, Defendants state as follows:
FACTUAL BACKGROUND
Rosanne L. Woodroof (hereinafter "Plaintiff") filed this breach of fiduciary duty action
on September 24, 2013, against her former lawyers, Cunningham & Associates, PLC (the
"Firm"), and the Firm's principal Joseph F. Cunningham (collectively referred to hereafter as
"Defendants"). As alleged in the Complaint, in December of 2008, the Plaintiff retained the
Firm to represent her in a dispute between herself and the condominium board of the Saint
George Condominium (located at 1280 21st Street, NW, Washington, DC 20036)(See
Complaint, 6 & 15). Despite the fact that the Firm was able to successfully secure a settlement
on the Plaintiff's behalf, the Plaintiff now alleges breaches of fiduciary duty on the part of the

Reply App. 117

Defendants (See Complaint, 55 & 56). The Defendants vigorously deny any breach of fiduciary
duty on their parts.
On January 3, 2014, counsel for the Defendants, Robert Gastner, and Ms. Woodroof,
appearing pro se, attended a scheduling conference in this matter. At that hearing, the Court
granted the Defendants' Motion for a More Definite Statement, and gave Ms. Woodroof thirty
(30) days in which to file an Amended Complaint. On February 3, 2014, the Defendant filed an
Amended Complaint which the Defendants now ask the Court to dismiss with prejudice.
ARGUMENT
I.

Applicable Legal Standard
Rule 12(b)(6) of the Rules of Civil Procedure for the Superior Court of the District of

Columbia permits the Court to dismiss a matter for failure to state a claim upon which relief can
be granted. DC-SCR 12(b)(6). "In reviewing the Complaint, the court must accept its factual
allegations and construe them in a light most favorable to the non-moving party." Chamberlain
v. American Honda Finance Corp., 931 A.2d 1018, 1023 (D.C. 2007) (citing Jordan Keys &
Jessamy, LLP v. St. Paul Fire & Marine Ins. Co., 870 A.2d 58, 62 (D.C. 2005). However,
"fflactual allegations must be enough to raise a right to relief above the speculative level..." Bell
Atlantic Corp. v. Twombly, 127 S. Ct. 1955, 1965 (2007); see also Ashcroft v. Iqbal, 129 S. Ct.
1937 (2009); Potomac Dev. Corp. v. District of Columbia, 28 A.3d 531, 544 & n.4 (D.C. 2011)
(adopting the plausibility standard articulated in Twombly and Iqbal.). Thus, "dismissal under
Rule 12(b)(6) is appropriate where the Complaint fails to allege the elements of a legally viable
claim." Chamberlain, 931 A.2d at 1023.
While a complaint need not plead "detailed factual allegations," the factual allegations it
does include "must be enough to raise a right to relief above the speculative level" and to
2

Reply App. 118

"nudge[][] claims across the line from conceivable to plausible." Twombly, at 1965, 1974. In
ruling upon a motion to dismiss, a court may ordinarily consider the facts alleged in the
complaint, documents attached as exhibits or incorporated by reference in the complaint, and
matters about which the court may take judicial notice. Gustave-Schmidt v. Chao, 226 F. Supp.
2d 191, 196 (D.D.C. 2002). In addition, the court may, in its discretion consider matters outside
the pleadings and thereby convert a Rule 12(b)(6) motion into a motion for summary judgment
under Rule 56. See Fed.R.Civ.P. 12(b); Yates v. District of Columbia, 324 F.3d 724, 725
(D . C. Cir.2003) .1
Conclusory allegations or legal conclusions masquerading as factual allegations will not
suffice to prevent a motion to dismiss. Warren v. District of Columbia, 353 F.3d 36, 39 (D.C.
Cir. 2004); Bender v. Suburban Hosp., Inc., 159 F.3d 186, 192 (4th Cir. 1998). Moreover, the
court does not need to accept as "true the complaint's factual allegations insofar as they
contradict exhibits to the complaint or matters subject to judicial notice." Kaempe v. Myers, 367
F.3d 958, 963 (D.C. Cir. 2004). Even as to a pro se plaintiff, the Court may dismiss the
complaint if it does not cite any basis in support of its conclusions. See Crisafi v. Holland, 655
F.2d 1305, 1308 (D.C. Cir. 1981) ("A pro se complaint, like any other, must present a claim
upon which relief can be granted by the court."). As set forth below, Plaintiff has failed to allege
facts sufficient to support any cause of action against Defendants. Accordingly, this Motion to
Dismiss should be granted and judgment should be entered in favor of Defendants.

1

The D.C. Court of Appeals has noted that D.C. Superior Court Rule 12(b)(6) is "substantially the same" as Rule
12(b)(6) of the Federal Rules of Civil Procedure, and that this Court can therefore look to federal precedent in the
interpretation of the D.C. Superior Court Rule. See McBryde v. Amoco Oil Co., 404 A.2d 200, 202 (D.C. 1979).

3

Reply App. 119

II.

The Assertions in Plaintiff's Amended Complaint are Consistently Contradicted by
the Attached Exhibits.
The Amended Complaint contains numerous assertions which should be disregarded by

the Court as they directly contradict the Complaint's attached exhibits. As noted above, the
court does not need to accept any of the Amended Complaint's factual allegations as true to the
extent that they contradict its attached exhibits. Kaempe, 367 F.3d at 963. These contradictions
are enumerated as follows:

The Amended Complaint alleges that the Defendants made numerous guarantees
regarding the outcome of the Plaintiff's case. Amended Complaint ¶ 3. However, the
Plaintiff's Retainer Agreement with the Firm, which the Plaintiff signed, states "I
acknowledge that the Firm has made no promises or guarantees regarding the outcome of
this case." Exhibit 1 to the Amended Complaint.

The Amended Complaint asserts that Defendants did not keep the Plaintiff reasonably
informed regarding her representation. Amended Complaint III 2, 8, 9. However, the
exhibits attached to the Amended Complaint reference an overwhelming number of
emails sent to the Plaintiff regarding her representation and monthly invoices that she
received which detailed the work done on her behalf. Exhibit 12 to the Amended
Complaint.

The Amended Complaint asserts that the Defendants failed to properly instruct the
Plaintiff with respect the mitigation of her damages. Amended Complaint ¶ 3. However,
the correspondence attached to the Complaint by the client notes that the concept of

4

Reply App. 120

mitigation of damages had been repeatedly explained to the Plaintiff and that the Plaintiff
had ignored the Defendants' instructions. Exhibit 2 to the Amended Complaint.
With respect to the Confessed Judgments that the Defendants requested that the Plaintiff
sign, the Plaintiff repeatedly asserts that the Firm did not advise her to seek independent
counsel. Amended Complaint

Tif 5, 13. However, the Defendants sent the Plaintiff a

letter advising just that. Exhibit 12 to the Amended Complaint.
The Plaintiff characterizes the Defendants' requests for her to satisfy an outstanding
invoice from a mediation service as a breach of their fiduciary duties. Amended
Complaint ¶ 9. However, the only communication that the Plaintiff provides between the
Defendants and the mediation service quite clearly demonstrates that the Defendants
were attempting to negotiate a reduced fee on the Plaintiff's behalf and not acting in
anyway contrary to their fiduciary duties. Exhibit 10 to the Amended Complaint.

HI.

Plaintiff has failed to Sufficiently Allege Cognizable Damages
In a recent case, the District of Columbia Court of Appeals declined to fmd proximate

cause where a law firm's former client's complaint required it to speculate about a legal result.
Pietrangelo v. Wilmer Cutler Pickering Hale & Dorr, LLP, 68 A.3d 697, 710 (D.C. 2013).2 The
Court specifically held that such compound speculation is insufficient as a matter of law to
support a claim for breach of fiduciary duty against an attorney. Id. This has long been the
2 Defendants note that federal courts in the District had previously allowed clients suing their
attorney for breach of the fiduciary duty of loyalty and seeking disgorgement of legal fees as
their sole remedy needed to prove only that their attorney breached that duty, not that the breach
caused them injury. Hendry v. Pelland, 73 F.3d 397, 402 (D.C. Cir. 1996). However, this line of
case law only applies to an alleged breach of the duty of loyalty. Id. However, additionally as
noted below, the Plaintiff has failed to allege sufficient factual allegations to support such a
breach by Defendants.
5

Reply App. 121

standard for recovery of such claims in the District of Columbia. Previous courts have similarly
held that the mere breach of a professional duty, causing only nominal damages, speculative
harm, or the threat of future harm—not yet realized—does not suffice to create a cause of action.
Hillbroom v. PricewaterhouseCoopers LLP, 17 A.3d 566 (D.C. 2011). In the instant matter, the
Plaintiff repeatedly asserts that a case, which she ultimately successfully settled, was allegedly
prejudiced somehow by the Defendants. See e.g., Amended Complaint ¶ 8. However, the
Plaintiff's assertions constitute the exact type of speculation upon which the Court in the
Pietrangelo case refused to award any recovery.
Moreover, a plaintiff must show that an attorney's alleged breach caused a legally
cognizable injury. See McCord v. Bailey, 636 F.2d 606, 611 (D.C. Cir 1980). The plaintiff must
also show, among other things, that the attorney's breach resulted in and was the proximate
cause of any asserted loss. Niosi v. Aiello, 69 A.2d 57, 60 (D.C. 1949). The Amended
Complaint's request for relief alleges a litany of grievances including, but not limited to:

Plaintiffs grossly deteriorated credit rating and financial position, continuing
fmancial strife, disruptions to professional duties, derogatory, private,
confidential and secret information made public, hence available on the
internet, including humiliating and damaging judgments, liens and foreclosures
on real property, sharply elevated, harmful anxiety and stress associated with
revelations of humiliating information, foreclosure threats on property,
including home established after years of displacement caused by the other
primary fiduciary in Plaintiffs life, the purpose of Defendants' hiring.
None of these alleged damages constitute legally cognizable injuries that would result from a
purported breach of fiduciary duty nor are they supported by factual allegations from which one
could infer that they were proximately caused any alleged fiduciary breach on the part of the
Defendants.

6

Reply App. 122

IV.

Plaintiff's Amended Complaint Fails to Allege any Actual Breach of Duty on the
Part of the Defendant
With respect to the Plaintiff's allegations that the Defendants' breached their duty of

loyalty to the Plaintiff, all that the Plaintiff has alleged is that the Defendants continually sought
to be paid for their services and sought for the Plaintiff to satisfy invoices to third-parties
assisting the litigation as she was obligated to pay for under the parties' Retainer Agreement.
See Amended Complaint

Tif 5, 7, 9, 13 & Exhibit 1 to the Amended Complaint. None of the

Plaintiff's allegations assert that the Defendants attempted to act in a representative capacity for
any adverse party as is the focus of the prohibitions imposed by Rule 1.7 of the Rules of
Professional Conduct. Rather, all of the Plaintiff's assertions relate to attempts to recover costs
and fees owed to the Defendants. However, the collection of accounts receivables from clients is
part of the operation of a law practice and has never been considered by courts to be a breach of
an attorney's duty of loyalty. "Clearly, in a situation where an attorney is seeking to recover fees
from a client who has not paid the attorney for his services, the client cannot argue that the duty
of undivided loyalty prevents his own attorney from pursuing his own claims if the client fails to
pay the attorney monies owed." Pierce & Weiss, LLP v. Subrogation Ptnrs. LLC, 701 F. Supp.
2d 245, 252 (E.D.N.Y. 2010)(citing Petition of Rosenman & Colin, 850 F.2d 57 (2d Cir. 1988)).
With respect to the Defendants' Motion for Leave to Withdraw as Counsel, "A lawyer
may withdraw from representing a client if withdrawal can be accomplished without material
adverse effect on the interests of the client, or if: ... (3) The client fails substantially to fulfill an
obligation to the lawyer regarding the lawyer's services and has been given reasonable warning
that the lawyer will withdraw unless the obligation is fulfilled." D.C. R. Prof. Cond. 1.16(b).

7

Reply App. 123

The Plaintiff has alleged that the Defendants' motion's references to monies owed to the
firm constituted a breach of their fiduciary duty to her.3 However, communications relating
solely to the payment of attorneys' fees are not covered by the attorney-client privilege unless
they reveal confidences about the nature of legal services rendered. See e.g., Berliner Corcorn &
Rowe LLP v. Orian, 662 F. Supp. 2d 130, 134 (D.D.C. 2009); see also Montgomery County v.
Micro Vote Corp., 175 F.3d 296, 304 (3d Cir. 1999) (holding that attorney fee agreement letter is
not privileged); Chaudhry v. Gallerizzo, 174 F.3d 394, 402 (4th Cir. 1999) ("Typically, the
attorney-client privilege does not extend to billing records and expense reports."); Lefcourt v.
United States, 125 F.3d 79, 86 (2d Cir. 1997) ("As a general rule, a client's identity and fee
information are not privileged."); Clarke v. Am. Commerce Nat'l Bank, 974 F.2d 127, 129 (9th
Cir. 1992) (holding that billing correspondence is not protected unless it "also reveal[s] the
motive of the client in seeking representation, litigation strategy, or the specific nature of the
services provided, such as researching particular areas of law"). Additionally, to the extent that
the statements at issue pertain solely to the timing of payments and promises to pay and do not
implicate the nature of services provided or other confidential information, they are not subject
to the attorney-client privilege. Berliner Corcorn & Rowe LLP, 662 F. Supp. 2d at 134 (D.D.C.
2009). Because the communications that Plaintiff claims were privileged were in fact only

The Amended Complaint also notes that the Defendants' motion referenced the Plaintiffs
intention to proceed pro se. However, as this information is required to be disclosed and filed
with the Clerk by D.C. SCR 101(c)(2), it is hard to follow the Plaintiffs argument that this
information could be privileged or that its disclosure prejudiced her case somehow.
8
3

Reply App. 124

relating to the payment attorneys' of fees, this claim should be dismissed.4 See Amended
Complaint ¶ 8.
With respect to the Plaintiff's allegations that the Defendants were required to use the
third-party administrative services provider, "Clicks," to perform additional discovery
processing, the Defendants know of no ethical obligation that would require them to contract
with third-parties to perform legal work on behalf of the Plaintiff. Amended Complaint ¶ 6.
Plaintiff's allegations are purely speculative and conclusory. Just because "Clicks" was able to
provide some low-level clerical assistance by "bates stamping" various documents does not
mean that "Clicks" could have or should have handled all of the tasks involved with the
preparation of the Plaintiff's discovery responses.5 See Exhibit 6 to the Amended Complaint.
Regarding the Court's dismissal of the St. George as a Defendant, it should be noted that
said dismissal was without prejudice. As detailed in Exhibit 11 to the Amended Complaint, the
Defendants reached out to the St. George to perform a mediation prior to the filing of the
Plaintiff's lawsuit against the St. George but did not receive any response. Id. The Court found
that mediation was a required condition precedent to the filing of any lawsuit between the parties
pursuant to a previous agreement that they had entered into, and the Court dismissed the St.
George as a defendant without prejudice until the parties could participate in a mediation. Thus,
all that the Plaintiff has alleged is a shift in the order of events that occurred. The referenced

In any event, a lawyer may use or reveal client confidences or secrets to the minimum extent
necessary in an action instituted by the lawyer to establish or collect the lawyer's fees. See D.C.
R. Prof Cond. 1.6(e)(5).
Moreover, as outlined in detail below, these claims are now barred by res judicata.
9

Reply App. 125

mediation would have had to have been scheduled in any event, and the St. George was
incorporated back to the Plaintiff's lawsuit as a defendant after the mediation was completed.
Thus, the Plaintiff cannot point to any prejudice on her part as a result of alleged failing on the
Defendants' part.
Finally, the Plaintiff's Amended Complaint contains new allegations that are so vague
once again as to preclude a proper response by the Defendants. Paragraph 7 of the Amended
Complaint now alleges that the Plaintiff has found a document outlining the thoughts of
opposing counsel which the Plaintiff asserts is relevant to the parties' dispute. However, the
Plaintiff has not attached said document to the Amended Complaint and only provides her own
vague characterizations of its contents. Similarly, Paragraph 11 now alleges that the Defendants
failed to disclose an expert witness and that this somehow prejudiced the Plaintiff in later
litigation. However, the Plaintiff fails to identify how these subsequent proceedings were
prejudiced given that she also alleges that she was once again able to achieve a settlement of her
additional claims. These are the exact type of vague assertions that the Defendants sought to
rectify with their Motion for a More Definite Statement and the type of vague assertion that
caused the Court to admonish the Plaintiff that she would need to provide greater specificity to
avoid a dismissal of her case. The Plaintiff has already been given chance to clarify her
pleadings and failed to do so adequately, thus, they should now be dismissed with prejudice.
V.

Plaintiff's Claims are Barred by the Doctrine of Res Judicata
A plaintiff generally must "present in one suit all the claims for relief that he may have

arising out of the same transaction or occurrence." United States Indus., Inc. v. Blake Constr.
Co., 765 F.2d 195, 205 (D.C. Cir. 1985). Under the doctrine of res judicata, a plaintiff may not
10

Reply App. 126

assert claims that were actually litigated or claims that could have been litigated in a previous
action. Allen v. McCurry, 449 U.S. 90, 94 (1980); see also I.A.M. National Pension Fund v.
Indus. Gear Mfg., 723 F.2d 944, 949 (D.C. Cir. 1983) (noting that res judicata "forecloses all
that which might have been litigated previously."). Res judicata acts to "conserve judicial
resources, avoid inconsistent results, engender respect for judgments of predictable and certain
effect, and to prevent serial forum-shopping and piecemeal litigation." Hardison v. Alexander,
655 F.2d 1281, 1288 (D.C. Cir. 1981).
The doctrine of res judicata applies where: (1) the same parties are involved in both suits;
(2) the present claim is the same as an issue that was raised or might have been raised in the first
proceeding; (3) a judgment was issued in the first action by a court of competent jurisdiction; and
(4) the earlier decision was a final judgment on the merits. See Palev v. Estate of Ogus, 20
F.Supp. 2d 83, 87 (D.D.C.1998).
Here, Plaintiff has noted that the Defendants previously secured a judgment in a case
filed in Arlington County Circuit Court with respect the entirety of the legal fees whose validity
she is now disputing (Arlington County Circuit Court Case No. CL 11-56). Amended Complaint
¶ 15. Said case plainly involved the same parties, and the case involved the same core factual
allegations that Plaintiff is asserting here (i.e., the Defendants' legal representation of the
Plaintiff). The Arlington County Circuit Court, clearly a court of competent jurisdiction, has
already necessarily found the fees charged by the Defendants to be reasonable. Moreover, the
Plaintiff's assertions with respect to the need to arbitrate the parties' dispute and her various
allegations of breaches of fiduciary duty were raised or might have been raised as defenses in the
parties' previous litigation. Therefore, all of these claims should be barred by the doctrine of res
judicata.
11

Reply App. 127

CONCLUSION
The Plaintiff's Amended Complaint contains numerous deficiencies as enumerated
above. It does not allege with sufficient particularity any damage that the Plaintiff suffered, nor
does its factual allegations support any breach of fiduciary duty on the Defendant's part. Instead,
it relies on series of conclusory statements. Moreover, to the extent that the allegations in the
Amended Complaint are compared with its attached exhibits, they consistently conflict said
exhibits. As noted previously, the Plaintiff has already been ordered by the Court to clarify her
Complaint. However, many of the Plaintiff's amendments continued with the same ambiguities
which the Court exhorted her to avoid at the parties' last hearing. Finally, the claims and issues
that the Plaintiff has raised are barred by the doctrine of res judicata. As such, it is highly
unlikely that the Plaintiff will be able to assert any cognizable set of facts which will allow her to
recover. Thus, the Plaintiff's Complaint should be dismissed with prejudice.
WHEREFORE, Plaintiff respectfully requests that this Court dismiss the Plaintiff's
Amended Complaint with prejudice and impose any other remedies as the Court sees fit.
Dated: February 6, 2014

Oral Argument is Hereby Requested.
CUNNINGHAM & ASSOCIATES, PLC
AND JOSEPH F. CUNNINGHAM
By Counsel:

/s/ Joseph F. Cunningham
Joseph F. Cunningham (DC BAR #65532)
CUNNINGHAM & ASSOCIATES, PLC
1600 Wilson Boulevard, Suite 1008
Arlington, Virginia 22209
Telephone: (703) 294-6500
Facsimile: (703) 294-4885
Email: info@cunninghamlawyers.com
Counsel for Defendants
12

Reply App. 128

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 6th day of February, 2014, a true copy of the foregoing
Defendants' Memorandum of Points and Authorities in Support of Their Motion to Dismiss was
served via Electronic Mail and First Class Mail to the following pro se party:

Rosanne Woodroof
P.O. Box 3050
Warrenton, Virginia 20188
Email: ROSANNE.WOODROOF@comcast.net
Pro Se Plaintiff

\s\
Robert J. Gastner

13

Reply App. 129

SUPERIOR COURT FOR THE DISTRICT OF COLUMBIA
CIVIL DIVISION
)
)
)
Plaintiff,
)
)
v.
)
)
JOSEPH F. CUNNINGHAM, ET AL.,)
ROSANNE L. WOODROOF

Case No. 2013 CA 006474 M
Hon. Brian F. Holeman

)

Defendants.

)
)
ORDER

UPON CONSIDERATION of the Defendants' Motion to Dismiss, it is this day
of

, 2014, by the Superior Court of the District of Columbia;

ORDERED that the Defendants' Motion to Dismiss pursuant to Rule 12(b)(6) be, and
hereby is, granted;
AND IT IS FURTHER;
ORDERED, that the Plaintiff's Amended Complaint be dismissed with prejudice.

JUDGE - SUPERIOR COURT OF D.C.

Reply App. 130

Copies to:
Joseph F. Cunningham, D.C. Bar # 65532
info@cunninghamlawyers.com
Robert J. Gastner, D.C. Bar # 987759
rgastner@cunninghamlawyers.com
Cunningham & Associates, PLC
1600 Wilson Blvd., Suite 1008
Arlington, VA 22209
Telephone: (703) 294-6500
Facsimile: (703) 294-4885
Attorneys for Defendants
Rosanne Woodroof
P.O. Box 3050
Warrenton, Virginia 20188
Email: ROSANNE.WOODROOF@comcast.net
Pro Se Plaintiff

2

Xfinity Connect Arrange Meeting RE_ Arbitration Case No_ 2013

https;//connectxfinity,com/appsuite/v=7.10.0-29.20200507.032519/p...

Reply App. 131
ROSANNE L WOODROOF <rosanne.woodroof@Comcastmet>

4/11/2017 7:29 AM

Arrange Meeting RE. Arbitration Case No. 2013 CA 6474 M
To jjschraub@sancisanderson.corn

Good Morning, Mr. Schraub,
Please contact mews soon as possible to arrange a meeting to discuss arbitration of the
above-referenced case.
Thank you,
Regards,
Rosanne L Woodroof
Rosanne.Woodroof@comcast.net
(540) 359-6045 home
(202) 262-0140 cell
FAX (540) 301-2101
VVoodrOof Arbitraion Meeting Request 4.11.17.pdf (2 MB)

1 of 1

6/21/2020, 6:07 PM

Reply App. 132

April 11, 2017
J. Jonathan. Sekauh, Esquire
SANDS ANDERSON PC
1497 Chain Bridge Road, Suite 202
McLean, VA 22101
No. 2013
RE: Meeting to Discuss Arbitration D.C. Superior Court Case

6474.

Dear Mr. Schraub,
Court on
Pursuant to the OMNIBUS ORDER filed by the D.C. Superior
ss proceeding
April 6, 2017, am contacting you to arrange a meeting to discu
ose this
immediately with arbitration of the above-referenced case. I prop , the Rules that
discussion to include arbitrator selection, the claims of each party
pertinent items the
will apply, the timing and cost of the arbitration and/or other
parties must agree upon to commence arbitration.
as available,
will continue to represent myself Pro-Se, with legal consults
since you first
because of my financial condition, which has only deteriorated
sought arbitration on June 26, 2014.
tion of an
At our meeting, I will look forward to an update on your selec
erning your
arbitrator. I have not received any communication from you conc
arbitrator selection since an email notice on July 14, 2014.
sold in
As you.are well aware, my home was recently scheduled to be
in Virginia to follow.
foreclosure in March 2017, with my eviction from my home
iderable duress to
During January, February and into March 2017, was under cons
dably, my primary
save my home and prevent eviction and that was, understan
pany about futurecom
e
focus during that time. My discussions with my mortgag
payments are on

Reply App. 133

Please contact me as S0031 as possible to arrange a•meeting to discuss
commencing arbitration.

Best regards,
Rosanne L Woodro4 Pro se
PO Box 3050
Warrenton, VA 20188
Rosanne.Woodroof@comeast.net
(540) 359-6045
(202) 262-0140 'cal
FAX (540) 301-2101

Xfinity Connect Agreement _Rules, et_ Printout

https://connectxfinityloomiappsuite/v=7.10.0-29.20200507.p 2519/p...
Reply App. 134

'ROSANNE L WOODROOF <rgsapnewoodroof@comcW.neti

.8/112017 6.12 PM

Agreement & Rules, etc.
toschrauts@sandsa,dersontom. mkramer@sandsanderson.com
Good AfternOon, Mr. SahraUb,
Per your earlier email today, I would appreciate knowing wherein the.Arbitration Agreement it
specifies that the Rules should/willfshall be decided by the arbitrators?
Similarly, where,does the ,Arbitration Agreement state, imply andiar disclose in. any way' that
there will be no discovery?.
Thanks for clarifying this,Rosanne L Woodroot Pro Se
Rosanne.VVoodrooft comeast net
(540) 359-6045 home
(202) 262-0140 cell

1 of 1

.5/21/2020, 6:04 'PM

https://conneeticfmitycom/appsuite/v=7.10.0-29.20200507.032519/p...
xflnity tennect RE_Basic Framework and Rules for Arbitration Pri...
Reply App. 135

Schraub, J. Jonathan qschraub@sandsanderson.com>

611/2017 3:20 PM

RE: E3asit Framework and Rules for Arbitration
To ROSANN L WOODROOF <rosanne.woodroof6torncastnet>
Kramer, rvladelaine A. <mkrainer@SandsandersOn.com>

Ms. Woodroof — the issues you raise are within the province of the arbitrators. It is not my intention to engage
In aback and forth with you over any Issue as that has proven to bespectacularly unproductive. I will tell you
that i am opposed to any form of formal discovery which is not usually a part of any arbitration process.
Administrative matters can be handled by the arbitrators in any manner they might agree on. Once a third
arbitrator is picked and the parties have provided adequate security for our respective portion of the fees, I am
sure the panel Will Move the matter forward.

Finally, We did:not agree to have the hearing continued as that is the decision a the Court and unless btherwise
advised by the Court, we will be present at the time the hearing is scheduled:

3. ,3onathan Schraub
Attorney
Sands Anderson PC
1497 Chain Bridge Road, Suite 202 McLean) VA 22101
(703) 893-3600 Main J (703) 893-8484 Fax
www.SandsAnderson.com I jiSchraubOsandsanderson.coml Bio J vCattl
NOTICE from Sands Anderson PC: This message and Its ,attachments are confidential and may be protected by the attorney/client
privilege. if you are not the named addressee or if this message has been addressed to you In error, yoU are directed not to read,
disclose, reproduce, distribute, disseminate or otherwise use this transmission. Please notify Mesender Immediately by e-maii and
delete and destroy this message and its attachrnerits.

Frotm`ROSANNE L WOODROOF tmailto:posatine.woodroof@corricatt.net]
Sent ~Tuesday, August 01, 2017 2:57 PM
To: Schraub, J. Jonathan; Kramer, Madelaine A.
Subject: Basic Framework and Rules for Arbitration
Good Afternoon,
I would like to work with you to determine a reasonable administrative framework and some basle Rules, similar tO
the manner in Which arbitration entities operate, but customized to the matter at ,hand and administratively
streamlined in some administrative areas that do not compromise thesubStance of the case.
One of the reasons for this to avoid administrative "clutter hampering and diverting the work of a panel of relatively
high paid experts. I think it best to keep the panel focused on the substantive matters they are being hired to
decide. They will have plenty of work undertaking that task.
Another reason is the difficulty we have coming to agreement There is no reason for our disagreements to disrupt
the Panel and richochet around the panel, back to us, and around again, etc. This would be ridiculously costly, even
for.an insurance company, counterproductive and quite fnistrating for the Panel members Who should be devoted
to more important matters, as I have,aid.

1 61'2

6/21/2020, 6:14 'PM

Xfini Connect RE__ Basic Framework and Rules for Arbitration Pri...
https://connect.xffinity.com/appsuiteh=7.10.0-29.20200507.032519/p...
Reply App. 136
.1%i/eat to put together the best panel possible and create a positive working environment for them where they can
operate in a posiliVe, cohesive, productive manner. If all goes well, there will be good, maybe even great dynamics
amongst panel members which would facilitate a much better, more efficient job for us both of us, whatever they
decide.
I am willing to work hard, as elways, and undertake-a lot of the administrative chores which cost a lot of money
when handled by an arbitration entity.
If you have other thoughts, ideas, please let meknow. You may, for example, plan to offer some of your aclmin
people to help out with administrative Matters or provide office space, assuming your office is convenient for the
panel. You may have ideas/preferences about locations, space, court repotting, etc. After all, you have almost 30
-years of experience with AAA, a major arbitration entity, not that we should copy them, but certainly we can learn
from them and your expertise and.xperience, while formulating and adopting our own policies and ,procedures that
work best for us in this case.
For exemple, i prefer to cohduct interviews, here called "depositions," with fewer parties present as I can work
better with that formula. However, I am willing to consider depositions before you, me and the entire panel so that
everyone is involved "real time" and can process everything without undue back and forth and review, meetingS
and multiple;court reporters. (If it is customary for a Panel to have time with deponents by themselves, that could be•
done after the initial interview. I am not saying the'Panel should be denied time to depose witnesses apart from us,)

I Would appreciate your agreeing to reset the upcoming August 4 hearing, which may happen anyway. We-ehould
have more to report at,a later status hearing. Please lel me know your schedule -as I think you plan to go out of
town on August 4 and maybe will be away from the office until after the 11th,,,? date you told the court you Mad
not be available.
Regards,
Rosanne L WoOdroof,*Pro Se
Rosanne.Woodroof(d.j.comcastriet
,(540) 359-6045 home
(202) 262-0140 cell

2 of 2

6/21/2020, 6:14 PM

Xfinity Connect RE Appointment of Party Arbitrator Today July 28...
https://connecLxfinity.com/appsuite/v=7.10.0-29.20200507.032519/p...
Reply App. 137
ROSANNE L WOODROOF <rosanne.woodroof@comcastmet>

7/28/2017 5:00 PM

RE: Appointment of Party Arbitrator Today July 28, 2017
To Schraub, J. Jonathan lschraub@sandsanderson,corn>

Thanks for the update.
I am committed to putting together the best Panel possible in the circumstances and also managing the process in
the most efficient, effective and economical manner possible.
Regards,
Rosanne L Wobdroof
Rosanne.Woodroofecomcast.net
(540) 359-6045 home
(202) 262-0140 cell
On July 28, 2017 at 4:50 PM Schraub, J. Jonathan wrote:,
Thank you. Our original arbitrator, Judge Paul Sheridan, has retired and we Will be proceeding with Mikhael
Charnoff an attorney in Arlington.
J. Jonathan Schraub
SandsAnderson PC
1497 Chain Bridge Rd_
Ste. 202
Mclean, Va. 22101
793-893-3600
From: ROSANNE L WOODROOF < rosannemoodroof@comcast.net>
Date: Friday, Jul 28, 2017, 4:48 PM
To: Schraub, J. Jonathan < JJSchraubasandsanderson.com>, Kramer, Madelaine A. <
MKramer@sandsanderson.com>
Subject: Appointment of Party Arbitrator Today July 28, 2017

Good Afternoon,
This is to inform you that I have appointed Mr. Matthew B. Kaplan of The Kaplan Law Firm

as my arbitrator for the arbitration of my malpractice claim, in compliance with the Order
by Judge Holeman of the p.c. Superior Court on June 30, 2017.
Regards,

Rosanne L Woodroof, Pro Se
Rosanne.Woodroof@comcast.net

1 of 2

6/21/2020, 6:05 PM

https://connectxfinity.com/appsuite/v---7.10.3-620200722.054552/pri—
Xfinity Connect Reconfirm Friday October 6 Telephone Call Re_
Reply App. 138

RoSANNE L WOODROOF ‹rosanne.woodfoot@comcastnet>

10/10/2917 6:24 A1V

Reconfirm Friday October 6 Telephone Call. Re: Mov ngforwal4
and Payment
'To Matthew B Kaplan <mbkaplan6thekaplanlawfirm.com>

Good Morning, Matt,
When we talked thiapastfriday, it was my understanding that the plan was to move forward With another arbitrator.
selection to replace David Clark, who 'recently quit. You indicated that you spoke with Mr. Charnoff the prior day
(Thursday) arid
he was also agreeable in moving forward with a new selection, especially since he is being
paid by an insurance company and payment is not an issue.
You indicated to me that you Would'Update your invoices so that 'I will know the exact,amount owed in order' to
make a payment this week: If you are unable to complete ydur invoice for September, please indicate an •
approximate amount for Me to pay,into;your IOLTA.
Please let me know when you will again have time to revisit the arbitrator selection issue. It is My understanding
that you were experiencing a relatively heavy schedule-and/or deadlines last week, but you did not indiCate when
your schedule would ease enough to .resume work on my case..
- 'Thank you,
'Rosanne L Woodroof

-Rosanne.Woodfoofecomcastnet
pito) 35976045 home
(202) 26291410:

1 oft

1/13/2020, 1`.01 AM

tittps://emnect.xfinity,comfappsuite/-7.10.3-620200722.0545521pri...
Xfinity Connect Deposit Update and. Date of Next Conversation Printout
Reply App. 139
ROSANNE L WOODROOF <rosanne.woodroof@Conicastnet>

10/14/2017 8:39 PM

.
Deposit Update and Date of Next Conversation
To Matthew B Kaplan <mbkaplan@thekaplanlawfirm.com>

Matt;
Deposit into your 1OLTA should be made on Monday or Tliesdayof this .corning eek:
You told me that yoU would be available on Tuesday, October 17, for our next conversation about the direction of
the arbitration, search for neutral panel chair, etc. However, I will have an initial consult that day with en attorney
MI6 may help me manage the case and also provide a nameor two you can interview for the role of panel chair
need to prepare and conduct that meeting, so would like to push our next conversation to Wednesday_ afternoon or
Thursday of this coming week.
Please let me ,know a good time for us to update each other next week.
Regards,
Rosanne
Rosanne.WoOdroofecoriiimistnet
(540) 359;6045'home
(202) 262-0140 cell

1 of 1

8/13/2020,1:04 AM

Reply App. 140

D
0A
o
0
0
0A

Matthewl3Kaplan

Last-Nightfiled hlOtiori foraurt Appointed Neutral and Die,.. 6.0 KB Sent

11/27/2017

Matthew B Kaplan
Matthew B Kaplan

Re: Judge Mize and Other Potential Candidates
Re: 10/31/17 Invoice

53 KB. Sent
11.9 KB Sent

11114/2017
11113/74Q17

Wiatthevil3Kaplan

Follow-Up...I think you should try to "size up" more than one r... 3:5 KB Sent

11/13/2017

Matthew B Kaplan

Re: Mize

15.7KB Sent

Matthew B Kaplan

Status of kb ftrator search 'likke'sinpUt

10.3 KB Sent

11/13/2017
11/11/2017

Matthew B Kaplan

,Re:10f31/17 invoice

0
0A e

Matthew '8 Kaplan
Matthew B Kaplan

11 MB Sent
My Efforls t0 Arbiiidie During 20 1 and 2012 Rejected at Gre.._ 67 KB Sent.
3831 KEI Sent,
Re: Candidatet....

0 a

Matthew B Kaplan
Matthew B Kaplan

Re: Candidates_
Re: Waugh & Judge M

Matthew e. Kaplan

'Master List of M-D Arbitrators

.Matthew 'B Kaplan'

Rosterof M-D Arbitrators

0 a
0
0
0
(9
0 a
0 a
0 g
0 igt
D g

0A
C).
0A
61
0
0A

3.9 Ka Sent
42 KB Sent

11/11/2017
11/10/21311
II/10/2017
11/2617
1119/2017

Sent

11/31201?

3.6KB Sent

11,4201f

Matthew B Kaplan

Brenda Waugh Available another 20 rninutes_othenvise em.,. 3,4 KB Sent

10/27/7017

Matthew B Kaplan

Selected M-D Arbitrators

432.9 KB Sent

L0/27/2017

Matthew B Kaplan

Re: Please Advise Good Time to Talk Today

11.0 KB Sent

10/27/2017

Matthew B Kaplan

Re: Please Advise Good Time to Talk Today

5.3 KB Sent

Matthew B Kaplan
Mathew 'B Kaplan

Please Advise Good Time to Talk. Today
Re: $5,45724 deposited in your Eagle Bank IOLTA today

92 KB Sent

10/27/2017
1005/2017
10/2512017

fis-',40-ew 3 -,..Es'an

S5.4; 84 dez3.91ei ^ yor r E:.‘g

21-2 KB

Matthew a Kaplan

Foltowing lip on Our Agreement to Talk This Week

Matthew B Kaplan

-

Matthew B Kaplan
Matthew pt Kaplan
Matthew B Kaplan
David Clark, mike@perryc...

.

rOLTA 'oda}

2.1 KB Sent
Sent

2.7 KB Sent

Rave $010 Deposit but Could Not Get to Eaole BankYester... 1.9 KB -.5Pnt
.• .
2.8 KB Sent
Deposit Update and Date of Next Conversation
2.9 KB Sent
iNextTuesclay OK - $$$ tolOLTA
Reconfirm Friday October 6 Telephone Cali Re: Moving:Row._ 35 KB Sent
Re: Arbitration involvino Rosanne Woodroof and Cunning:IL.. 28,0 KB Sent

1 :4

:

1.0ant317
10/18/2017
10114/2017
10/1012017
10110/2017

iman7

POtterv..City of Flint, 736 E Supp. 2d 1095 - Dist. Court; ED Michi...
Reply App,441----,

736 ESuppld 1095 p010)
David PORTER et al., Plaintiffs,
V.
CITY OF FLINT and Donald Williamson, Defendants.
Case No. 0714507.
United States DIStrict Court, E.D. Michigan, Southern Division.
September 8, 2010.
1056 1096 Glen N. Lenhoff Levi Office of Glen.N. Lenhoff, Michael E2Freifeld, Glen NI: anhoff, CristineWasserman
.Rathe. Law Offices of bean Yeotis,
for Plaintiffs.
H. William Reising, Plunkett & Cooney,,Peter M. Bade, City of Flint Le-gal Department, Flint, MI, Susan D. Koval,
Frederic E. Charnpnella, 11, JoSeph R. FuriOn Jr., Peter N. Camps, Susan D. Koval, Nemeth Burwell,
Detroit.
MI, for Defendants.
1097 9997 MEMORANDUNI

AND ORDER GRANTING DEFENDANT'S MOTION

TO DISQUALIFY ARBITRATOR THOMAS WAUN
AVSIIN COHN, District Judge.

1. INTRODUCTION
This Is a racial distairninatirti case under Michigan's Elliott-Larsen Civil Rights Adt, MLA_ § 37.2202, and the Civil
Rights Act, 42 U.S.C. § 1983. Forty five white police officers complain that the City of Flint and Mayor,Donald
Williamson (Williamson) unlawfully discriMinated against them when Williamson personally selected officers on the
basis of race to serve on a newly formed Citizens' Service Bureau (CSB). At the time of the events in question, 16
plaintiffs held the rank of Patrol Officer, 19 the rank of Sergeant, seven the rank of Lietitenant, and three the rank of
Captain
The Court denied defendants' joint motion for summary judgment (Doc. 44) and defendants' joint motion for partial
reconsideration. (Doc. 54). On allay 11, 2009,1he parties agreed to consolidated arbitration. (Doc. 77) The Court
entered an order staying the consolidated Civil actions during arbitration. (Doc. 71). Pursuant to the order, during the
stay the Court retained jurisdiction for the limited purpose of enforcing orders or subpoenas, and to enforce the
panel's award, if any, with respect to these consolidated chill actiOns:The arbitration Is governed by the Federal
Arbitration Act, 9 U.S.C. § 1, et aea (FM).
Now before the Court is Defendant Williams-on% Motion to Disqualify Amitmtor Thomas VV9Uri. PlaiptilTs have

responded and defendant hat replied: Fitr the reasons •that follow, the !notion is GRANTED,

FACTS
The facts are taken from the parties' pleadings and exhibits.

This case arises out of a 'reverse discrimination claim, •alleging that WilliarniOn disaiminated based on race When

l'orter v. City of lint, 736 E Supp. 2d 1095 - fist Court, ED Micbt
Reply App. 142
he created the CSB.Alleged victims filed claims in both state and federal court_ After a state court plaintiff Was
awarded a $131,000 fury verdict, the parties reached an arbitration agreement (Doc. 77). The Consolidated actions
before this Court are stayed pending arbitration. (Doc. 71). The selected arbitration panel consists of d=ormer
Oakland County CircUlt Court Judge Barry Howard and AttOrneys Tom Cranmer and Tom Watin.

B.
The Arbitration Agreement was signed on:December 11,200S, by ell parties. Pertinent provisions include:
The arbitrators shall be requested to disclose'in writing to all Parties or their representitives all
Connections or relationships they may have or have had with any Party and any representative or
attorney of a Party and all other facts or matters that might bear orappear to a reasonable person to
bear on his/her ability to decide impartially the 'matters to be submitted to him/her.
The arbitrators shall sign an oath confirming that he or she knows of no Matter that would preventhim or her from deciding the submitted matters impartially.
(Doc, 77 p.5).

C

4

On May12, 2010,-Waun, is plaintiff's counsel, filed a lawsuit against Patsy Lat.4 Buiek-GMC-Chevrolet in Genesee
County (the Manley case), alleging Unlawful sales practices at thedealenship. (Doc. 77-3). Particularly, the
complaint alleges that defendants targeted elderly and African American customers in a- "packing the payment"
1098 *1098 scheme, designed to allow the dealership to make a larger profit on each deal. Williamson, the husband of
the dealership's owner, is a named defendant in the lawsuit. He is described in the complaint as serving the
dealership In "high management position," and as being involved in the complained of activities to the extent that
he was advised of the unlawful behavior and took no action:
On May 20, 2010, the Flint News quoted Waun commenting on Wilfiemson's involvement in the tate. (Doc. 774).
Waun stated that "Williamson] was the 'Ilia slops here' guy."

lla: LEGAL STANDARD
itlis dispute Is governed by the FAA, under which!:

tai written provision in any contract eVidencing a transaction involving commerce to settle by
arbitration a controversy thereafter arising alit of such contrail or transaction ... shell be valid,
irrevocable, and enforceable, save upon such grOundS es exist et taw or in equity tor the revocation
:ofany contract..
o U.S.b. 5 2 •(ampheitia added).

To invalidate an arbitrator's award on the grounds of bias, the thith Circuit has?eld that °Me challenging party must
show that a reasonable person Would have to conclude that en arbitrator was partial." 9pperson Y. Fleet Carrier
pr203.. 870 F2d 1344,13581(6th Cir.1989) (internal citations omitted).
Related to pre-award disputes,
district court does not have juriSdiction over disputes involving allegations of bias
until "after the;rhikation proceedings have come to a close and the party claiming bias haS received an award:"
Vestitix Sec. Com. v. Desmond. 919 F,Suop.. 1061_1075 ,(E.DNIich.1995); see also dial
v. Ryder Sys.,, ins.,
,1110F3d 802; 805 (2d Cid 997). In other worsts, "an agreement to' arbitulte before a particular arbitrator may not be
disturbed:'
110f.3d at '895.

Porter v. City of Flint, 736 F. Supp. 2d 1095 - Dist. Court, ED lvlichi...

Reply App. 143
However, a Court may intervene if the agreement is "subject to attack Under general cohtract principles 'as exist at
law or in'quity.'" Id. (quoting 9 U.S.C. § 2). Particularly, there is an exception "where, prior to the commencement of
any arbitration proceedings, the plaintiff alleged specific instances of actual misconduct on the part of an arbitrator.'
va,qax, 919 F.Supp. at 107§ (citing Metro, Prop. IS ,GeS. v. J.C. Penney Gas. 780 F.Supp. 685, 893-94
(D.Conn_1991) (court found exception where allegations of bias concerned ex party discussions on the merits of the
claim prior to being selected on the arbitration panel)).

PartiCularly, the "touchstone" determination in deciding whether a court has:uthonty to remove an arbitrator before

arbitration proceedings have ended is where 'The arbitrators relationship to one party OS] undisclosed, or
unanticipated and unintended, thereby Invalidating the contract." Avian, 110 F.3d at 896 (discussing cases where
arbitration agreement not enforceable because agreement's "neutral expert' provision Was frustrated and where
arbitrators were removed because they concealed business and attorney-client relationships).

IV. ANALYSIS
In essence, this matter comes down to whether Waun violated the terms of the Arbitration Agreement by

representing Manley in the case against Williamson and speaking to the press about his views;on Williamson%
involvement.
Williamson sayt that this case falls tinder the exception recognized In Vestax and AViaii because, by representing
1099 Manley and speaking to the press, Waun breacthed *1099 the Arbitration Agreement's provision that'Waun must
disclose any relationship that ''might bear or appear to a reasonable person to bear bn histherability to decide
impartially the matters to be-submitted to hirother."
Waun says that this Court, under Vestax, Aviall, and the FM, does not have authortty to disqualify an arbitrator, not

recognIting an exception. Waun further states that even if the Court has authority, Waun's conduct does not warrant
removal because this case and the Manley case are unrelated on the Merits. Thus, Waun says that under the Sixth
Circuit's post-award standard, a reasonable person would not find an appearance Of bias here.
The Court agrees with Williamson that Waun breached the terms of the Arbitration Agreement Waun filed a ease
that involved Williamson as a named party and'then proceeded to talk about it to the press. This was after Waun
signed an Arbitration Agreement requiring that he disclose in writing any connections or relationships that may give
an appearance of impartiality to a reasonable person. implicit In this obligation Is the fact that If there is appearance
of partiality he is not eligible to continue as an arbitrator. 'Waun did not 'make this disclosure. Waun violated the
Arbitration Agreement. Further, the Court disagrees with Waun's assertion that the two matters are unrelated. Both
cases allege discriminatory acts by Williamson and, thus, beat on Waun's ability to be impartial as an arbitrator„
particularly, on a matter that has not yet reached the evidentiary phase.
Waun Should not have undertaken the Manley case and, at the least' should have disclosed the representation to
allow the parties the opportunity to object. Because a reasonable person could conclude that Waun was partial
based on his involvement and conduct in the Manley case, Waun nitist be disqualified.

A000rdingly, under the limited exception recognized in Vestax and Awan, which Is consistent with the language or
the'AAt the Court disqualifres'Watin as an arbitrator on the consolidated actions. To delay consideration of removal
until arbitration is complete would exalt form over substance. Moreover, with Waun as an arbitrator the arbitration is
proceeding under a cloud.
SO ORDERED.

3 of 3

Reply App. 144

AMERICAN BAR ASSOCIATION/COLLEGE OF COMMERCIAL
ARBITRATORS ANNOTATIONS TO THE CODE OF ETHICS FOR
ARBITRATORS IN COMMERCIAL DISPUTES
Text of The Code of Ethics for Arbitrators in. Commercial Disputes Effective
March 1, 2004 and Annotations
Preamble
The use of arbitration to resolve a wide variety of disputes has grown extensively and
forms a significant part of the system of justice on which our society relies for a fair
determination of legal rights. Persons who act as arbitrators therefore undertake serious
responsibilities to the public, as well as to the parties, Those responsibilities include
important ethical obligations.
Few cases of unethical behavior by commercial arbitrators have arisen. Nevertheless, this
Code sets forth generally accepted standards of ethical conduct for the guidance of
arbitrators and parties in commercial disputes, in the hope of contributing to the
maintenance of high standards and continued confidence in the process of arbitration.
This Code provides ethical guidelines for many types of arbitration but does not apply to
labor arbitration, which is generally conducted under The Code of Professional
Responsibility for Arbitrators of Labor-Management Disputes.
There are many different types of commercial arbitration. Some proceedings are
conducted under arbitration rules established by various organizations and trade
associations, while others are conducted without such rules. Although most proceedings
are arbitrated pursuant to voluntary agreement of :the parties, certain types of disputes ate
submitted to arbitration by reason of particrlar laws. This Code is intended to apply.to all

2

Reply App. 145

such proceedings in which disputes or claims are submitted for decision to one or more
arbitrators appointed in a manner provided by an agreement of the parties, by applicable
arbitration rules, or by law. In all such cases, the persons Who have the power to decide
should observe fundamental standards of ethical conduct. In this Code, all such persons
are called "arbitrators," although in some types of proceeding they might be called
"umpires," "referees," "mutrals," or have some other title.
Arbitrators, like judges, have the power to decide cases. However, unlike full-time
judges,arbitrators are usually engaged in other occupations before, during, and after the
time that they serve as arbitrators. Often, arbitrators are purposely chosen from the same
trade or industry as the parties in order to bring special knowledge to the task of deciding.
This Code recognizes these fundamental differences between arbitrators and judges.
Irt those instances Where this Code has been approved and recommended by
organizations that provide, coordinate, or administer services of arbitrators, it provides
ethical standards for the meMbers of their respective panels of arbitrators. However, this
Code does not form a part of the arbitration titles Hof any such organization unless its rules
so provide.
Note on Neutrality
Insome types of commercial arbitration, the parties or the administering institution
provide for three or more arbitrators. In some such proceedings, it is the practice for each
party, acting alone, to appoint one arbitrator (a "party-appointed arbitrator") and for one
additional arbitrator to be designated by the party-appointed arbitrators, or by the parties,
Or by an independent institution or individual. The sponsors of this Code believe that it is
preferable for all arbitrators — including.any party-appointed arbitrators — to be neutral,
that is, independent and impartial, and to comply with the same ethical standards. This
expectation generally is essential in arbitrations where the parties, the nature of the
dispute, or the enforcement of any resulting award may have international aspects.
However, parties in certain domestic.arbitrations in the United. States may prefer that
party-appointed arbitrators be non-neutral and governed by special ethical considerations.
These special, ethical considerations appear in Canon X ofthis Code.
This Code eStablishes a presumption of neutrality for all arbitrators, including partyappointed arbitrators, which applies unless the parties' agreement, the arbitration rules
agreed to by the parties or applicable laws provide otherwise. This Code requires all
party-appointed arbitrators, whether neutral or not, to make pre-appointment disclosures
of any facts which might affect their neutrality. indepenclence..or impartiality. This Code
also requires.all party-appointed arbitrators to ascertain and disclose as soon as
practicable whether the parties intended for them to serve as neutral or not. If any doubt•
or uncertainty exists, the party-appointed arbitrators should serve as neutrals unless and
until such doubt or uncertainty is resolved in accordance with Canon IX. This Code
expects all arbitrators, including those serving under Canon X to preserve the integrity
and fairness of the process.

3

Reply App. 146

Note on Construction.
Various aspects of the conduet of arbitratOrs, including some matters covered by this
Code, may also be governed by agreements of the parties, arbitration rules to which the
parties have agreed, applicable law, or other applicable ethics rules, all of which should
be consulted by the arbitrators. This Code does not take the place of or supersede such

laws, agreements, or arbitration rules to which the parties have agreed and should be read
in conjunction with other rules of ethics. It does not establish new or additional grounds
for judicial review of arbitration awards.

All provisions of this Code should therefore be read as subject to contrary provisions of
applicable law and arbitration rules. They should also be read as subject to contrary
agreements of the parties. Nevertheless, this Code imposes no obligation on any arbitrator•
to act in a manner inconsistent with the arbitrator's fundamental ditty to preserve the
integrity and fairness of thearbitral process.
Canons I through VIII of this Code apply to all arbitrators. Canon IX applies to all partyappointed arbitrators, except that certain party-appointed arbitrators are exempted by
Canon X from compliance with certain provisions of Canons I-IX related to impartiality
and independence, as spetMed in Canon. X.
Annotation to Preamble
2012 — 13 Supplement
Hcti2 Block Tax Services LEC N. Wild, 2011 US. Dist. LEXIS 124693
Although two of three arbitrators were party-appointed, all served as neutrals
pursuant to the Code's establishment, as noted in the Preamble, Of "a presumption
of neutrality for all arbitrators, including party-appointed arbitrators."

4

Reply App. 147
R-13. Direct Appointment by a Party
If the agreement of the parties names an arbitrator or specifies a method of
appointing an arbitrator, that designation or method shall be followed. The notice
of appointment, with the name and address of the arbitrator, shall be filed with the
AAA by the appointing party. Upon the request of any appointing party, the AAA
shall submit a list of members of the National Roster from which the party may, if it
so desires, make the appointment.
Where the parties have agreed that each party is to name one arbitrator, the
arbitrators so named must meet the standards of Section R-18 with respect to
impartiality and independence unless the parties have specifically agreed
pursuant to Section R-18(b) that the party-appointed arbitrators are to be
non-neutral and need not meet those standards.
If the agreement specifies a period of time within which an arbitrator shall be
appointed and any party fails to make the appointment within that period, the
AAA shall make the appointment.
If no period of time is specified in the agreement, the AAA shall notify the party
to make the appointment. If within 14 calendar days after such notice has been
sent, an arbitrator has not been appointed by a party, the AAA shall make the
appointment.

R-14. Appointment of Chairperson by Party-Appointed Arbitrators or Parties
If, pursuant to Section R-13, either the parties have directly appointed arbitrators,
or the arbitrators have been appointed by the AAA, and the parties have
authorized them to appoint a chairperson within a specified time and no
appointment is made within that time or any agreed extension, the AAA may
appoint the chairperson.
If no period of time is specified for appointment of the chairperson, and the
party-appointed arbitrators or the parties do not make the appointment within
14 calendar days from the date of the appointment of the last party-appointed
arbitrator, the AAA may appoint the chairperson.
If the parties have agreed that their party-appointed arbitrators shall appoint the
chairperson from the National Roster, the AAA shall furnish to the party-appointed
arbitrators, in the manner provided in Section R-12, a list selected from the
National Roster, and the appointment of the chairperson shall be made as
provided in that Section.

16

RULES AND MEDIATION PROCEDURES

American Arbitration Association

Reply App. 148
R-1 8. Disqualification of Arbitrator
(a) Any arbitrator shall be impartial and independent and shall perform his or her
duties with diligence and in good faith, and shall be subject to disqualification for:
partiality or lack of independence,
inability or refusal to perform his or her duties with diligence and in good
faith, and
any grounds for disqualification provided by applicable law.
(b) The parties may agree in writing, however, that arbitrators directly appointed by a
party pursuant to Section R-13 shall be non-neutral, in which case such arbitrators
need not be impartial or independent and shall not be subject to disqualification
for partiality or lack of independence.
(c) Upon objection of a party to the continued service of an arbitrator, or on its own
initiative, the AAA shall determine whether the arbitrator should be disqualified
under the grounds set out above, and shall inform the parties of its decision,
which decision shall be conclusive.

R-19. Communication with Arbitrator
No party and no one acting on behalf of any party shall communicate ex parte
with an arbitrator or a candidate for arbitrator concerning the arbitration,
except that a party, or someone acting on behalf of a party, may communicate
ex parte with a candidate for direct appointment pursuant to R-13 in order to
advise the candidate of the general nature of the controversy and of the
anticipated proceedings and to discuss the candidate's qualifications, availability,
or independence in relation to the parties or to discuss the suitability of
candidates for selection as a third arbitrator where the parties or party-designated
arbitrators are to participate in that selection.
Section R-19(a) does not apply to arbitrators directly appointed by the parties
who, pursuant to Section R-18(b), the parties have agreed in writing are
non-neutral. Where the parties have so agreed under Section R-18(b), the AAA
shall as an administrative practice suggest to the parties that they agree further
that Section R-19(a) should nonetheless apply prospectively.
In the course of administering an arbitration, the AAA may initiate
communications with each party or anyone acting on behalf of the parties either
jointly or individually.
As set forth in R-43, unless otherwise instructed by the AAA or by the arbitrator,
any documents submitted by any party or to the arbitrator shall simultaneously be
provided to the other party or parties to the arbitration.

18

RULES AND MEDIATION PROCEDURES

American Arbitration Association

Parties in the existing Arbitration or Arbitrations, JAMS may
decide that the new case or cases shall be consolidated
into one or more of the pending proceedings and referred
to one of the Arbitrators or panels of Arbitrators already
appointed.
When rendering its decision, JAMS will take into account
all circumstances, including the links between the cases
and the progress already made in the existing Arbitrations.
Unless applicable law provides otherwise, where JAMS
decides to consolidate a proceeding into a pending Arbitration, the Parties to the consolidated case or cases will be
deemed to have waived their right to designate an Arbitrator
as well as any contractual provision with respect to the site
of the Arbitration.
(f) Where a third party seeks to participate in an Arbitration already pending under these Rules or where a Party to
an Arbitration under these Rules seeks to compel a third
party to participate in a pending Arbitration, the Arbitrator shall determine such request, taking into account all
circumstances he or she deems relevant and applicable.

Rule 7. Number and Neutrality of
Arbitrators; Appointment and
Authority of Chairperson
The Arbitration shall be conducted by one neutral Arbitrator, unless all Parties agree otherwise. In these Rules,
the term "Arbitrator" shall mean, as the context requires,
the Arbitrator or the panel of Arbitrators in a tripartite
Arbitration.
In cases involving more than one Arbitrator, the Parties
shall agree on, or, in the absence of agreement, JAMS shall
designate, the Chairperson of the Arbitration Panel. If the
Parties and the Arbitrators agree, a single member of the
Arbitration Panel may, acting alone, decide discovery and
procedural matters, including the conduct of hearings to
receive documents and testimony from third parties who
have been subpoenaed to produce documents.
Where the Parties have agreed that each Party is to
name one Arbitrator, the Arbitrators so named shall be
neutral and independent of the appointing Party, unless
the Parties have agreed that they shall be non-neutral.

mg) roimigtistimuti

elir*i 0 isive'&44t1 gg,

Reply App. 149

Reply App. 150

AMERICAN AR13ITRATION ASSOCIATION"

CommentCanon VIII
This Canon does riot preclude an arbitrator from printing, ptibllshing, or disseminating advertisements confoirning to these
standards in any electronic or print medium, from malting personal presentations to prospective users of arbitral services
conforming to such standards or from responding to inquiries concerning the arbitratoes availability, qualifications,
experience, or fee arrangements.
CANON IX: Arbitrators appointed by one party have a duty to determine end disclose theirstatus and'to comply with
'this codes except at eXernpted by Canon X
A. In .sorne.`.types of arbitration in which there are three arbitrators, it is.customary for .eachperty, acting alone, to appoint one
arbitrator: The third arbitrator is then appointed by agreement either of the parties or of the two .arbitrators, or failing such
agreement, by an independent institution or individual. In tripartite arbitrations to which this Code applies, all three arbitratorsore presurned to be neutral and are expected toobserve the samestandards as the third arbitrator,
!8. Notwithstanding this presumption, there are. certain :types of tripartite arbitration in which it is expected by all parties .that the two
arbitrators appointed by-the parties may be predisposed toward the petty eppointing therm Those arbitrators, referred to in this
Code as "Canon X-arbitrators,'' are not to beheld to the standards of neutrality and independence applicable to other arbitrators.
.Canon.X describes the special ethical obligations of party-appointed arbitrators Who are not expected to meet the standarefof
neutrality.
Aparty-appointed arbitrator has an obligation to ascertain, as early as postible but not later than the first meeting of the arbitrators
and parties, whether the parties have agreed that the party-appointed arbitrators- will serve as neutrals or whether they Shell be..
subject to Canon X, and to providea timely report of their conclusions to the,arties and other arbitrators:
1(1.). Party-appointed arbitrators should review the agreement of the parties, the applicable rules and apyapplicablelaw bearing.
upon arbitratOr neutrality. In reviewing the agreement of theparties,.party-appointed arbitrators should consult-any relevant
express terms of the written or oral arbitration agreement It may.lso be appropriate for them to inquire into agreements
that have not been expressly set forth, but which may be implied from an established course of dealings of the parties or
welkecognizecicustorn and usage in their trad,eor profession;
(2) Mere party-appoirited arbitrators conclude that the .parties intended for the party-appointed arbitrators not to serve as
neutrals, they should so inform the parties and the other arbitrators, The arbitratOrs may then act as provided in Canon X unless
or until a different determination of theirstatus is madeby the parties, any.administering institution or the arbitral panel', end

6) Until party-appointed arbitrators conclude that the party-appointed arbitrators were not intended by the parties to serve as
neutrals, :or if the party-appointed arbitrators are :unable to'orm a reasonable belief of tkeirstatus from the foregoing sources.
and no decisiOn inthis,regard has yet been made by the parties, any administering institution, .orthe .arbitral panel, they
should observe all of the obligations of neutral arbitrators set forth in this Code:
Party-appointed arbitrators not governed by Canon X shell observe all of the. obligations of Canons l through Mil:unless otherwise.
required by agreement of the parties, any applicable rules, or applicable law

MIE CODE Or'ETHICSTOR ARBITRATORS IN COMMERCIALDISKITES

idr.Org

Reply App. 151

AMERICAN ARBITRATION ASSOCIATION%

CANON X: Exemptions for arbitrators appointed by one patty who are not sUbject tO rules of neutrality
.Canon X arbitrators are expected to observe all of the ethical obligations prescribed by this Code except those from
which they are specifically excused by Canon X.
Ai Obligations Under Canon
Canon )(arbitrators should observe all of the obligations Of Canon I subject only to the following provisions:
Canon X arbitrators may be predisposed toward tha party who appointed them but in all other respects are obligated to act in
good faith and with integrity and fairness. For example, Canon X arbitrators should not engage in delaying tactics or harassment
of any party or witness and should not knowingly make untrue or misleading statements to the other arbitrators; and
The provisions of subparagraphs B(1), B(2), and paragraphs'C and D of Canon 4, insofar as they relate to partiality, relationships;
and interests are not applicable to Canon X arbitrators.
8- Obligations Under Canon II
Canon X arbitrators should disclose to all parties, and to the other arbitrators, all interests and relationships which Canon II
requires be disclosed, Disclosure as required by Canon II is for the benefit not only of the party who appointed the ,arbitrator;
tout also for the benefit of the other partiesind arbitrators so that they may know of any partiality Which may exist or appear
to exist and
Canon X arbitrators are not obliged to withdraw under paragraph G of Canon II if re-quested to do so only by the party who
did not appoint them.
C. Obligations Under Canon
Canon .X arbitrators shouldobserVe all of the obligations of Canon III subject only tc; the following provisions:
Like neutral party-appointed arbitrators, Canon X arbitrators may consult with the party who appointed them to the extent
permitted in paragraph B dr.-anon Ill;
Canon X arbitrators shall, at the earliest practicable time, disclose tb the other arbitrators and to the parties Whether or
not they intend to communicate with their,ppointing parties. If they have disclosed the intention to engage in such
communications, they may thereafter communicate with their appointing parties concerning any other aspect of the case,
except as provided in paragraph (3);
lisuch communication occurred prior to the time they were appointed.as arbitrators, or prior to the firsthearing or other
meeting of the:parties with the arbitrators, the Canon X arbitrator should, at or before the first hearing or meeting of the
arbitrators with the parties, disclose the fact that such communication has taken place. In complying with the provisions ,of
this subparagraph, it is sufficient that there be.disclosure of the fact that such communication has occurred without disdosing
the •content of the communication. A single timely disclosure of the Canon X arbitrators intention to participate in such
communications in the future is sufficient

Canon X arbitrators may not at any time during the arbitration:
disclosa any deliberations by the arbitrators on any matter or issue submitted to them lotclecision;
.:communicate with the,parties that appointed them concerning.any matter or issue taken tinder 4onsideration by the
panel after the ,record is dosed or such matter or issue has been submitted for decision; Or
(C) disclose any final decision or interim decision in advance of the time that it is disclosed to all parties.

THE CODE OF ETHICS FOR ARBITRATORS IN COMMERCIAL. D ISPVTES

ad oorg

Reply App. 152

AMERICAN ARBITRATION

ASSOCIATION'

American Arbitration Association
Administrative Review Council,
Review Standards
This document is intended to outline the Review Standards utilized by the AAA's Administrative Review CoUncif (ARC) in
Inaking certain administrative decisions arising in the AAA's large, complex domestic caseload. The decisions made by
the ARC resolve administrative issues including objections to arbitrators, locale determinations, and whether the filing
requirements contained in the AAA Rules have been met. In conjunction with the ARC Guidelines and these ARC Review
Standards, the ARC reviews and resolves issues in a time and cost effective manner after careful consideration of the
parties' contentions, while upholding the integrity of the arbitration process and reinforcing the parties' confidence in
the process.
ARBITRATOR OBJECTION AND RESPONSE STANDARDS
The AAA Rules allow for any party to object to an appointed arbitratorlSee Commercial Arbitration Rule R-18, ConstruCtion
industry Arbitration Rule R-20, Employment Arbitration Rule 16). This guide will assist parties in understanding the
standards and process to be used lri maldng an arbitrator objection.
Grounds for Disqualification
The MA Rules ireqUire that any arbitrator Shall be impartial and independent and shall perform his or heroluties with
diligence and in good faith. Under the AAA's various rules, an arbitrator,ay be subject to disqualification fon
I. Partiality or lacktif independence
inability -orrefusal to perform his or-het duties with diligence and in good faith, end
-Anygroundsfor disqualification provided ,by applicable
Upon objection of a party to the continued service of.an arbitrator, or on its.wn initiative, the AM shall determine
whether the arbitrator should be disqualified under the grounds set out in the rules, and shall inform the ;parties tilts
,decision, which decision shall be conclusive.

,ADMIiIISTRATIVEPEVIEWCOLINCiL-REVIM srANDAR05

I I 00r.org

Reply App. 153
AMERICAN ARBITRATION ASSOCIATION'

,Standard 'for Disqualification

Partiality or Lack of Independence
As part of its consideration, the ARC utilizes a four-part test in determining vdhether an arbitrators) disclosure rises to
the level of removing an arbitrator from .a case. The four-part test is whether the conflict is:

Direct.
Continuing
-Substantial
Recent .
Weighing these factors together-Serves as a guide as to whether the conflict it disqualifying. Ultimately, the ARCS
administrative determination is based upon whether the disclosure createt; to a reasonable person, the appearance.
that an award would not be fairly rendered:
Inability or Refusal to Perform His or her

Duties With Diligence and In Good Faith

The ARC's administrative determination is based upon whether the circumstances create, to a reasonable person, the
appearance that the arbitrator is unable or:has-refined to perform his or her duties with diligence and in good faith.
'Method for Disqyalification

, 'Objections must bemade in writing and should be submitted to he AAA with a Copy of the objections shared with
all parties to the arbitration. The adDitrator should not be copied on any objection.
Any,OPFiosing party will be given the Opportunity to respond. The AAA will establish the schedule foithe response
at the time the objection is received:
Replies OT sur-replies are not provided for and Should not be submitted without the prior aPproval of the AAA.
'parties should limit each individual submission to no., more than five pages, excluding attachments. Where replies or
sur-replies are approved'by the. AAA, the page limit for each party's total submission may not exceed 10 pages.,
Best Practice Tips .
'Objections should be raised at the first.available opportunity.
Any party may make an objection to an arbitrator at any time in the arbitration, up to the issuance of the Award or other
terminating order.
While a party may file multiple objections to an arbitrator, additional Objections should not be made unless there are new
grounds for Making the objection. The ARC's decision on whether to remove or reaffirm an arbitrator is conclusiVe:
A'D. MINiS1[RATIVE REVIEW cotiNciL-REVIEW STAND/MOS'

adr.orit

Reply App. 154

AIVIERI CAN

ARBITRATIOTsi ASSOCIATION*

If a party raises a potential conflict not;previously.disclosed by the.arbitrator, befote considering the objection, the AAA
will ask the arbitrator to make a supplemental disclosure to the parties regarding the new potential conflict. Once the
supplemental disclosure is submitted, the AAA will then provide the parties with the opportunity to file an objection.
Pursuant to the AM Rtilet-, party-appointed arbitrators are considered neutral unless the parties have specifically agreed
that these arbitrators should be non-neutrai, Absent this agreement, party-appointed arbitrators are subject to the same
disclosure and challenge standards contained in the Rules.
FILING REQUIREMENT DETERMINATIONS
Pursuant to the ARC Guidelines, the AM Vice President or Directorin charge of the AAA's office where the case is being
administered has the discretion whether or not to request that the ARC decide if the filing requirements contained in the
AAA Rules have been met in a particular case. Any issue not submitted to the ARC will be decided by the appropriate
AM Vice President with case.management responsibility for that case. The MA's Rules provide information regarding
the filing requirements necessary for the AM to administer a case (see Commercial Arbitration Rules R-1, 2, 4_ & R-5,
Construction Industry Arbitration Rules RI, 2, 4 & R-5, Employment Ari3itration Rules 1, 3 & 4). Should a party challenge
whether a Claimant has met the AAA's filing requirements, this guide will assist the parties ih understanding the standards
and process used by the ARC to make this determination.
Standard for Review
The ARC will review the case file and the parties' contentions When making an administrative determination as to Whether
the Claimant has met the filing requirements contained in the MA Rulesby filing a demand for arbitration accompanied
by an arbitration clause or submission agreement providing for administration 'by the AAA under its Rules or by naming
the AAA as the dispute resolution provider. The AAA is not authorized to make arbitrability determinations, however the
ARC will review disputes about whether a matter has been properly filed with the AM.
Best Practice Tips
If the ARC has determined that the Claimant has met the filing requirements, the AM will proceed with the administration
of the arbitration absent an agreement of the parties or a court order:staying the matter.
The filing requirement ichallenge will be made a part of the AAA's administrative file. The parties may subrnit.their
jurisdictional or arbitrability arguments to the arbitrator for determination.
The AAA serves as a neutral administrative agency and does not generally appearor participate in judicial proceedings
relating to arbitration. if a party seeks court intervention regarding the arbitrability of a dispute, the. AAA should not be
named as a party-defendant. The AM's Rules provide that the MA is not a "necessary, party" and the AAAwill abide ' y
an order issued by the courts regarding the continued administration of the arbitration and the parties are requested to
keep the AM informed as to the outcome,

AOIAINISTROVE REVIEW COUNCIL- MEW STANDARDS

3 I adr.org

Reply App. 155

AMERICAN. ARBITRATION ASSOCIATION'

LOCALE DETERMINATION STANDARDS
The,AAA's Roles provide a process for the deterMination of the locale of the,evidentiary hearings (see Commercial
ArbitratiOn Rule R-11, Construction industry Arbitration Rule R-12, Employment Arbitration Rule 10). Should the parties
have a dispute about the locale of the arbitration, this guide all assist the parties in understanding the standards and
process used by the ARC to make this determination.
Factors for Consideration
The ARC considers the following factors in malting alocale determination:
;
1) Location of parties
2j Location of witnesses and documents
Location of site or place or materials
Consideration of relative cost to the parties
Place of performance of contract
Laws applicable to the contract
Place of previous court actions
B) Necessity of an on-site inspection of the project
9 Any other reasonable arguments that might affect the locale determination
Best practice Tips
If the parties' contract contains a designated hearing location, the ARC will set the locale at that hearing location:
The parties.should snake sure that each of the factors.outlined above have been addressed.
Under the Commercial Arbitration Rules, the AAA% deciSion is final and binding. However, AAA.Commercial Rule R-24
provides that the arbitrator has the authority to "set the date, time and place for each hearing." within the locale
determined by the MA.
tinder Construction Indystty Arbitration Rule
2, the AAA's decision is subject to the power of the arbitrator, to finally
determine the locale within 14calendar daysafter the date of the preliminary hearing.
Under Employment Arbitration Rule 10, the AM's decision issubject to the power Of the arbitrator(s), after .their
appointment, to makea final determination on the locale.

AD MINISTRATNE REVIEW CO if/Nick-REVIEW STANDARDS"

4

I adr.org

Reply App. 156

AAA.ARRITRATION

ROADMAP •

PAGE II

Appendix
The following statistics are the result of a study of business-to-business arbitration cases administered by the
AAA under the AAA's Commercial Arbitration Rulei and awarded in 2003. The findings reflect the number of
days cases took to reach certain milestones between filing and the,award.
The 25" Percentile indicates the average number of days that the first 25% of the cases studied took to reach a
particular milestone. The 75" Percentile indicates the average number of days that the first 75% of the cases
. studied took to reach a particular milestone. The Median is the mid-point, meaning that half the cases studied
took less time and half took more time to reach a particular milestone.

Claim Size
'Up to $75,000
25th Percentile
Median
75th Percentile

Selecting Arbitrator
33
47
75

Information Exchange
104
141
196

:Hearing Days
1
1
2

The Award
126
175
259

$75,000— $499,999
25th Percentile
Median
75th Percentile

_ Selecting Arbitrator .
'43
60
91

Information Exchange
161
217
309

Hearing Days
1
2
4

The Award
216
297
408

$500,000—'$999,999
25th Percentile
Median
75th Percentile

Selecting Arbitrator
46
67
98

information Exthange
182
279
344

Hearing Days
2
4
6

The Award
273
356
455

$1,000,000 — $9,999,999
Selecting Arbitrator
25th Percentile
SO
Median
71
75th Percentile
114

information Exchange
215
293
433

Hearing Days
3
5
8

The Award
309
414
563'

El 0,000,000A Up
25th Percentile
Median
75th Percentile

Information Exchange
217
.315.
447

Hearing Days
5
8
13

The Award
347
474
'597

Selecting Arbitrator
43
63
90

Reply App. 157

1

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CIVIL DIVISION

ROSANNE WOODROOF,
5

Plaintiff,

Civil Action Number

versus
JOSEPH CUNNINGHAM, et al

2013 CAM 6474
•
•

Defendants.
9

Washington, D.C.
Friday, February 16, 2018

10
11

The above-entitled action came on for a hearing4
before the Honorable BRIAN HOLEMAN, Associate Judge, in
Courtroom Number 516.

12
13
14

THIS TRANSCRIPT REPRESENTS THE PRODUCT
OF AN OFFICIAL REPORTER, ENGAGED BY THE
COURT, WHO HAS PERSONALLY CERTIFIED THAT
IT REPRESENTS TESTIMONY AND PROCEEDINGS
OF THE CASE AS RECORDED.

15
APPEARANCES:
16
On behalf of the Plaintiff:.
17
18

ROSANNE WOODROOF, Pro Se
WaShington, D.C.

19

On behalf of the Defendants:

20

JONATHAN SCHRAUB, Esquire.
Washington, D.C.

2.

22
23
24
25

Stephanie M. Austin, RPR, CRR
Official Court Reporter

(202) 879-1289

1

Reply App. 158

us whether you agree. We immediately said we agree..
Ms.. Woodroof had a whole host of issues. One of
them was the retainer issue, another one was whether- or
4

not the arbitrator understood that he had to rule on a

5

jurisdictional issue first and all sorts of things.
Eventually the three of theM together came back

7

and said, we've come forward on this, unless:-everybody
agrees to these principles, which we think are correct, we
can't go forward. Please tell us. We immediately said we

10

agree, Ms. WoodroOf immediately said she does not agtee,

ii

at which point the neutral resigned and'said, I can't go

12

forward;

13

TEE COURT: Okay,

14

MR. SCERAUB: Right. And then therafter, I.

15, just -- tobe -- she's absolutely correct. Thereafter I
16

simply Wused to go through this charade yet again,.
THE.COURT: All right.

18

MR. SCHRAM: You know, pick another arbitrator,

19

start all over again, only to have Ms. Woodrool decide

20

there's something wrong with that panel.

21

THE •COURT: All right: Very well.

22

Ms. Woodroof.

23

MS. WOODROOF: Yes. First off, let me say under

24

penalty of perjury, I was never asked to pay $3,000. That

25

is false. There was no request whatsoever for $3,600,
7

Reply App. 159

revisited this with my party arbitrator, and he agrees, we
never asked you for 0,000. I would have been fine.
3

3,000, fine. I didn't have a problem with 3,000, but I

4

was never asked for $3,000. Ahd I -- again, I have

5

verified with my party arbitrator. That is false. There

6

was no request.
My problem with the arbitration was the

8

disclosures that were required, because defense counsel

9

and his party arbitrator, the newly-Appointed arbitrator,

10

appeared to have some sort of a relationship that could

11

conflict Out the entire arbitration.

12

Then it developed that it was much worse than it
than I first thought. It developed that they

13

first

14

have a completely different interpretation of the

15

arbitration agreement.. They believe that party

16

arbitrators are not neutrals. That is absolutely totally

17

contrary to what his 30-year experience with AAA preaches

18

and teaches.

19

It is not what our agreement says, it's not what

20

the arbitration industry embraces, it is completely

23.

disfavored unless you have it In your agreement or unless

22

I agree in ►writing. And what we said

23

my filings is I never agreed in writing. And. I think it's

24

Rule 18 that's highly favored by the Courts. You don't go

25

in and just start up with non-neutral party arbitrators.

what I've said in

Reply App. 160

It creates a completely different arbitration than -- than
2

what I, AAA or JAMS would typically use.

3

in fact;, AAA told me, they will not undertake an

4

arbitration like he's trying to get here. They will not

5

dO it. Unless it's absolutely in the agreement or there's

6

an absolute sign-off by me. Ahd I have not signed off on

7

any non-neutral-

8'

Ahd when I realized the degree of corruption

9

that could occur and hoW it Would completely throw the

10

arbitration, I -- you know, I'ye stated for you, I think

11

in fairly clear terms, this is not what the industry does:

12

This is an aberration. Of course he embraced it. It'S

13.

hugely beneficial for him. It's a run-away arbitration

14

Where he'S really taking control, and he already had some
sort of a relationship he wasn't disclosing to begin with..

16

Now, disclose, the relationship, let me see if

17

it's a conflict or not.. That's the first step. And then

18

let'S get straight what the arbitration agreement actually

19

calls for.

20

Now, I want an ethical, fair arbitration. I

22

have fought for years. Here's my motion to compel in

22

2011.

23
24
25

THE COURT': Put it awayi and' let's talk about
the arbitration.
MS. WOODROOF: All right. Okay. I want a fair

Reply App. 161
)(Min' Connect your caw Printout

2/2812018

Matthew B Kaplan ‹rnbkaplan@thekaplanlawlint.cotn>

2/2812018 3:14 PM

your case
To Rosanne L Woodroof •trosanne.woodroof(iloomoast.mb

Rosanne:
Not sure whether you plan on appealing the dismissal of your case. l suspect that you have good appellate
arguments—don't knoW how the court could have dismissed without, at a minimum, an evidentiary basis for doing
so. And there is probably a good argument that the Superior Court judge should have sought to appoint an
arbitrator,

Regards,
Malt

Matthew B. Kaplan
The Kaplan Law Firm
1100 N Glebe Rd
Suite 1010
Arlington, VA 22201
(703) 665-9329 (telephone)
(888) 958-1366 (fax)
rnbkaplan@thekaplanlawfinmoom
www.thekaglanlawfirromorn

THE 'KAPLAN
LAW FIRM

https://connectAnIty.com/appsulteNg27.8.412.20180126.024650/printhlanATILI519874227516

1/2

Reply App. 162

SUMMARY TIMELINE

ARLINGTON COUNTY CIRCUIT COURT
January 7, 2011

Cunningham Files Fee Lawsuit $143,467.97
(Gets Court to Award Additional $60,000 Fees & Interest
For Virginia Lawsuits Later Found Without Subject Matter
Jurisdiction - See Related Cases)

February 7, 2011

Woodroof Files Motion To Dismiss Lack of Jurisdiction
Seeks DC Bar Rule XIII Mandatory Fee Arbitration
Claims $149,000 Excessive Fees (App. G 107-113)

April 15, 2011

Exparte Hearing — Woodroof Had No Notice —
Cunningham Defeats Woodroof' s Motion/Refuses to
Arbitrate

April 29, 2011

Woodroof Motion Reconsideration RE No Due Process —
Denied

June 17, 2011

Cunningham and Woodroof Conference with Court —
Agree to 5-Day Jury Trial on Fees

August 22, 2011

Cunningham Default Notice Based On Order from Exparte
Hearing April 15 2011

September 23, 2011 Woodroof Motion to Compel Arbitration Malpractice
(App G. 102-106)
September 26, 2011 Cunningham Granted Default Judgment

Reply App. 163

SUMMARY TIMELINE (continued)
SUPREME COURT OF VIRGINIA
January 2012

Woodroof Appeal - Default Judgment

September 2012

Woodroof Petition for Appeal Denied

DC SUPERIOR COURT
December 2012

Cunningham Files Virginia Default Judgment (Related
Case No. 2012 CA 9591 F) ("9591")

January 2013

Woodroof Opposes Default Judgment-Seeks Hearing

WOODROOF FIDUCIARY MALPRACTICE
September 24, 2013 Woodroof Files Fiduciary Malpractice
November 19, 2013 Cunningham Motion More Definitive Statement (Granted)
February 4, 2014

Woodroof Complies — Files Amended Complaint

February 4, 2014

Cunningham Files Motion to Dismiss with Prejudice

March 18, 2014

Woodroof Opposes Cunningham Motion to Dismiss

May 29, 2014

Hearing on Cunningham Default Judgment Case 9591,
Cunningham Motion to Dismiss Woodroof s Fiduciary

Reply App. 164

SUMMARY TIMELINE (continued)
May 29, 2014

Malpractice Case 006474, Woodroof s Motion for
Contempt (Against Cunningham)

May 29, 2014

Oral Ruling denied Cunningham Default Judgment and
Motion to Dismiss Woodroof s Fiduciary Malpractice,
Woodroof s Motion for Contempt
Parties Agree to Scheduling Order Track III Litigation

June 18, 2014

Cunningham Motion Extend Time to File Answers to
Woodroof s Fiduciary Malpractice Complaint

June 26, 2014

Cunningham Demands Arbitration; Notice of Appearance
J. Schraub

July 1, 2014

Cunningham Files Answer to Woodroof s Complaint

July 14, 2014

Cunningham Names Party Arbitrator (Does Not Disclose
or Designate Non-Neutral)

July 30, 2014

Woodroof Opposition to Arbitration (primarily
waiver/default argument) Denied

DC COURT OF APPEALS
August 22, 2014

Woodroof Appeals (Cunningham Waiver/Default on
Arbitration) 14-CV-939

Reply App. 165

SUMMARY TIMELINE (continued)
December 21, 2016 DC Court of Appeals Grants Jurisdiction; Affirms Order to
Arbitrate (with stipulation that threshold decision on
waiver/default must be decided by arbitrator)

DC SUPERIOR COURT — POST JANUARY 4, 2017 MANDATE
January 10, 2017

Cunningham Party Arbitrator Retires (Not Replaced Until
July 28, 2017)

February 7, 2017

Woodroof Files Prohibitive Cost/Validity Motion
Green Tree Fin. Corporation Alabama v. Randolph, 531
U.S. 79 121 S. Ct. 513 148 L.Ed. 2d 373 (2000)

February 10, 2017

Cunningham Opposes Prohibitive Cost/Validity Motion

April 6, 2017

Prohibitive Cost Motion Denied (No Hearing)

April 11, 2017

Woodroof Seeks Name of Cunningham Arbitrator &
Meeting to decide Rules (Cunningham — no response)
(App. 131-133)

April 14, 2017

Cunningham files Motion to Dismiss with Prejudice
Falsely Asserting Retired Arbitrator Still Available

April 24, 2017

Woodroof Files Opposition to Cunningham Motion to
Dismiss — Argued False Basis for Motion

May 5, 2017

Cunningham Dies

May 15, 2017

Woodroof Motion for Multidoor (Tripartite) Arbitration

Reply App. 166

SUMMARY TIMELINE (continued)
June 30, 2017

Status Hearing — Trial Court — No Arguments Allowed
Court berates Woodroof for recent financial problems (no
excuse for not arbitrating) also chastises Woodroof for
owing fees in Virginia, despite ruling Cunningham should
have arbitrated fees in 2011. (Related Cases) Court also
criticizes Woodroof for timing and motivation for
malpractice. (Despite 2011 Fee Arbitration Petition and
Motion to Compel Arbitration App. G 102-113)

June 30, 2017

Oral Ruling — Woodroof Ordered to Appoint Party
Arbitrator within 30 days or have case dismissed.

July 28, 2017

Woodroof complies with Order, Names Neutral Party
Arbitrator (App. 137)

July 28, 2017

Cunningham Then Names Party Arbitrator (App. 137)
Does Not Disclose Party Arbitrator Non-Neutral

August 1, 2017

Woodroof Seeks Meeting with Cunningham on Basic
Arbitration Rules/Reasonable Administrative Framework —
Cunningham Refuses (App. 134-136c)

August 4, 2017

Status Hearing - Woodroof reports compliance, but
Motion to Dismiss Not Vacated — left open for "renewal"
by Defendant Cunningham

August 27, 2017

Panel Chair Selected

September 8, 2017

Panel Proposals to Woodroof for Consent (App. 39)

Reply App. 167

SUMMARY TIMELINE (continued)
September 14, 2017 Woodroof Response to Proposals/Request Meeting to
Resolve Differences (Exhibit D App. 42-45)
October 2, 2017

Panel Demands Consent to Entirety of Panel Proposals
Woodroof denies Consent to Entirety of Panel Proposals
Panel Chair Resigns (Exhibit E App. 46-49)

October 6, 2017

Woodroof Confirms/Coordinates Arbitrator Replacement
Search with Party Arbitrators Re: Moving Forward
(App. 138)

October 9, 2017

Cunningham files Motion to Dismiss with Prejudice —
Asserts Arbitration Impossible - Arbitrator Resigned

October 10, 2017

Woodroof Emails to Party Arbitrator Kaplan October 10 to
November 27 re: Moving Forward Arbitrator Replacement
(App. 138-140)

November 27, 2017

Woodroof Files FAA Section 5 Motion to Appoint Neutral
Arbitrator & Disqualify Cunningham Party Arbitrator

November 28, 2017 Cunningham Opposes Section 5 Motion to Appoint
Replacement Arbitrator/Disqualification Cunningham
Non-Neutral Arbitrator
December 22, 2017

Woodroof Files Amended Complaint; Cunningham Files
Opposition

Reply App. 168

SUMMARY TIMELINE (continued)
February 14, 2018

Woodroof Motion to Use Courtroom Technology — To
Ensure Arguments Presented to Court or Entered into
Record if Court Refuses to Hear

February 16, 2018

Status Hearing (approx. 30 Minutes) Cunningham Motion
to Dismiss with Prejudice Granted (App. B 8-22)

March 16, 2018
January 3, 2019
October 3, 2019
November 7, 2019
October 28, 2019
February 4, 2020

Woodroof Appeal 18-CV-309
Brief Filed
Affirmed by MOJ
Petition for Rehearing/Hearing en banc
Motion to Publish Opinion
Petition Rehearing/Hearing En Banc Denied

